<html>
<title> - THE SECURITY FAILURES OF BENGHAZI</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                   THE SECURITY FAILURES OF BENGHAZI

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2012

                               __________

                           Serial No. 112-193

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
79-871                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania
VACANCY

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 10, 2012.................................     1

                               WITNESSES

Lieutenant Colonel Andrew Wood, Utah National Guard, U.S. Army
    Oral Statement...............................................     9
    Written Statement............................................    13
Mr. Eric Allan Nordstrom, Regional Security Officer, U.S. 
  Department of State
    Oral Statement...............................................    16
    Written Statement............................................    19
Ms. Charlene R. Lamb, Deputy Assistant Secretary for 
  International Programs, Bureau of Diplomatic Security, U.S. 
  Department of State
    Oral Statement...............................................    31
    Written Statement............................................    35
The Honorable Patrick F. Kennedy, Under Secretary for Management, 
  U.S. Department of State
    Oral Statement...............................................    43
    Written Statement............................................    46

                                APPENDIX

Letter from Mr. Eric A. Nordstom pertaining to a list of Security 
  Incidents-Libya................................................   108
Benghazi Weekly Report-September 11, 2012 from Amber R. Pickens, 
  AMEmbassy Tripoli..............................................   109
Request for DS TDY and FTE Support from Carol R. Johnson, 
  AMEmbassy Tripoli..............................................   112
Request to add Les Ambassador Protective Detail Bodyguard 
  Positions in U.S. Embassy Tripoli from Jairo Saravia, AMEmbassy 
  Tripoli........................................................   115
Request for Extension of TDY Security Personnel from Eric A. 
  Nordstrom, AMEmbassy Tripoli...................................   117
The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................   120
The Honorable Michael R. Turner, a Member of Congress from the 
  State of Ohio, Statement for the Record........................   122
The Honorable Gerald E. Connolly, a Member of Congress from the 
  State of Virginia, Opening Statement...........................   124
Letter from the Honorable Michael C. Burgess, a Member of 
  Congress from the State of Texas to the Honorable Barack H. 
  Obama, President of the United States..........................   126
Questions from the Honorable Darrell Issa, a Member of Congress 
  from the State of California to the Honorable Patrick F. 
  Kennedy, Under Secretary for Management, U.S. Department of 
  State and Ms. Charlene R. Lamb, Deputy Assistant Secretary for 
  International Programs.........................................   128
Responses to the questions sent to Patrick Kennedy and Deputy 
  Assistant Secretary Charlene Lamb by the Honorable Patrick 
  Meehan, a Member of Congress from the State of Pennsylvania....   131
Questions asked to Patrick Kennedy from Rep. Kucinich............   134


                   THE SECURITY FAILURES OF BENGHAZI

                              ----------                              


                      Wednesday, October 10, 2012

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 12:05 p.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Burton, Jordan, Chaffetz, 
Lankford, Gosar, Labrador, Meehan, DesJarlais, Gowdy, Ross, 
Farenthold, Kelly, Cummings, Norton, Kucinich, Lynch, Cooper, 
Connolly, Davis, and Murphy.
    Also Present: Representatives Rohrabacher and Adams.
    Staff Present: Ali Ahmad, Communications Adviser; Thomas A. 
Alexander, Senior Counsel; Brien A. Beattie, Professional Staff 
Member; Robert Borden, General Counsel; Molly Boyl, 
Parliamentarian; Lawrence J. Brady, Staff Director; Sharon 
Casey, Senior Assistant Clerk; John Cuaderes, Deputy Staff 
Director; Adam P. Fromm, Director of Member Services and 
Committee Operations; Linda Good, Chief Clerk; Frederick Hill, 
Director of Communications and Senior Policy Advisor; Mitchell 
S. Kominsky, Counsel; Jim Lewis, Senior Policy Advisor; Mark D. 
Marin, Director of Oversight; Rafael Maryahin, Counsel; Kevin 
Corbin, Minority Professional Staff Member; Ashley Etienne, 
Minority Director of Communications; Susanne Sachsman Grooms, 
Minority Counsel; Devon Hill, Minority Staff Assistant; 
Jennifer Hoffman, Minority Press Secretary; Carla Hultberg, 
Minority Chief Clerk; Peter Kenny, Minority Counsel; Dave 
Rapallo, Minority Staff Director; Rory Sheehan, Minority New 
Media Press Secretary; and Carlos Uriarte, Minority Counsel.
    Chairman Issa. The committee will come to order. Would you 
please take your seats?
    Perhaps most appropriately today, the Oversight Committee 
mission statement reads: We exist to secure two fundamental 
principles. First, that Americans have a right to know that the 
money Washington takes from them is well spent. And second, 
Americans deserve an efficient, effective government that works 
for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they get from their government. It is our 
job to work tirelessly, in partnership with citizen watchdogs, 
to deliver the facts to the American people and bring genuine 
reform to the Federal bureaucracy. This is the mission of the 
Government Oversight and Reform Committee.
    On September 11th, 2012, four brave Americans serving their 
country were murdered by terrorists in Benghazi, Libya. Tyrone 
Woods spent 2 decades as a Navy SEAL, serving multiple tours in 
Iraq, Afghanistan. Since 2010, he protected the American 
diplomatic personnel. Tyrone leaves behind a widow and three 
children.
    Glen Doherty, also a former SEAL, and an experienced 
paramedic, had served his country in both Iraq and Afghanistan. 
His family and colleagues grieve today for his death.
    Sean Smith, a communications specialist, joined the State 
Department after 6 years in the United States Air Force. Sean 
leaves behind a widow and two young children.
    Ambassador Chris Stevens, a man I had known personally 
during his tours, U.S. Ambassador to Libya, ventured into a 
volatile and dangerous situation as Libyans revolted against 
the long-time Qadhafi regime. He did so because he believed the 
people of Libya wanted and deserved the same things we have, 
freedom from tyranny.
    We join here today expressing, from this side of the dais, 
our deepest sympathy for the loss of lives of the families in 
Libya.
    Additionally, other Americans were injured in this 
terrorist attack, some suffering very serious injuries. I spoke 
to the father of one American who is presently recovering here 
in the United States in a military hospital. He hopefully will 
have a full recovery, but he has gone through supplemental 
surgeries that will require a long period of recuperation and 
reconstruction.
    Yesterday, the State Department began the process of coming 
clean about what occurred in Benghazi, or at least they issued 
a broad and definitive statement headed by a gentleman here 
today, Ambassador Kennedy. They made witnesses available in 
interviews. They made every effort from what we can tell to 
ensure that the people we wanted to talk to were available to 
us.
    More importantly, yesterday they held a broad news 
conference over the phone in which they made it very clear that 
it had never been the State Department's position, I repeat 
never been the State Department's position, that in fact, this 
assault was part of a reaction to a video or the like. This is 
corroborated by numerous witnesses and whistleblowers. Contrary 
to early assertions by the administration, let's understand 
there was no protest. And cameras reveal that. And the State 
Department, the FBI, and others have that video.
    Speaking of video, the one in California, made by an 
individual and out there for a period of time, also clearly had 
no direct effect on this attack. In fact, it was September 
11th, the 11th anniversary of the greatest terrorist attack in 
U.S. history in New York, Pennsylvania, and at the Pentagon. It 
was that anniversary that caused an organization aligned with 
al Qaeda to attack and kill our personnel.
    I deeply, again, appreciate Secretary Clinton's efforts to 
cooperate with this investigation. She stepped in and 
instructed her people to cooperate, and they have. 
Additionally, I have had conversations directly with the 
Secretary, and I believe that our service together since 2001 
in the United States Congress plays no small part in her 
recognition of the role we serve on both sides of the dome.
    Today, however, this hearing has been called for the 
express purpose of examining security failures that led to the 
Benghazi tragedy. The safe haven within the compound which some 
State Department officials seem to think could protect the 
Benghazi compound's inhabitants did not work, and in retrospect 
could not be expected to work. The overall level of security at 
the compound did not meet the threat existent or standards 
under Inman or any other reasonable assessment for a facility 
of this sort.
    Today's hearing is the result of concerned citizens with 
direct knowledge of the events in Libya ultimately reaching 
this committee. As we look back on what occurred, our challenge 
is to identify things that clearly went wrong, and what the 
benefit of hindsight will be for the men and women serving at 
dangerous locations around the world.
    Accounts from security officials who were on the ground and 
documents indicate that they repeatedly warned Washington 
officials about the dangerous situation in Libya. Instead, 
however, of moving swiftly to respond to these concerns, 
Washington officials seemed preoccupied with the concept of 
normalization.
    We will ask our panel here today what normalization means. 
In accounts we have heard, it included artificial timelines for 
removing American security personnel, replacing them with local 
Libyans. These occurred even as training delays and new threats 
also occurred. This rush toward a reduced presence of U.S. 
personnel continued even as a bomb blew a 12-foot opening in 
the wall of this very compound we speak about today. Requests 
for extensions of more security by the mission in Libya, 
however, appeared to have often been rejected, or even, more 
deliberately, officials in Washington told diplomats in Libya 
not even to make them. Or as we have had in sworn testimony, if 
you make them they will not be supported.
    We know that the tragedy in Benghazi ended as it did. We 
now know that in fact it was caused by a terrorist attack that 
was reasonably predictable to eventually happen somewhere in 
the world, especially on September 11th.
    In closing, as Secretary Clinton has empaneled a blue 
ribbon board to fully investigate what occurred, and this work 
is important, it is much broader for us and for that panel to 
take up an additional challenge. There are hundreds and 
hundreds of facilities similar to this around the world. There 
are thousands of personnel serving this country who at any time 
in any country could be a target. Some of those are high risk 
and obvious, like Libya. Others may be lower risk. This 
committee is dedicated to ensure that security is taken 
differently than it was leading up to the events here. We owe 
it to our Federal employees who put themselves and their 
families in harm's way around the world.
    The history of these panels is in fact that they deliver 
full and complete results and they pull no punches. Admiral 
Mullen is no stranger to controversy, and in fact getting to 
the bottom of it. So I do encourage all to look at the final 
result of the blue ribbon panel.
    But today it is 30 days since the September 11th attack, 
more or less. It is a long time to wait if you are sitting in 
Cairo, in Algeria, in Beirut, in Damascus and you don't trust 
that the security measures you need have occurred. Today we 
begin the process of saying they must be able to trust because 
you must be able to assure them that you are doing your work 
differently than just a short time ago.
    Today, we expect full cooperation from our panel. We expect 
to get to the truth. But it will, in fact, be a much longer 
time before all the facts are known. We do not intend to flesh 
out all the facts. We intend today, on a bipartisan basis, to 
ensure that we begin the confidence building for our men and 
women serving this country around the world that we will ensure 
that they be protected and, if anything, protected more than 
the perceived threat, and never less.
    With that, I recognize the ranking member for his opening 
comments. And then by unanimous consent, one additional, the 
chairman of the Subcommittee on National Security and his 
counterpart will be recognized for opening statements. All 
other members will have 7 days in order to put their opening 
statements in the record. With that, I recognize Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And let me 
be very clear. You said that your side of the aisle grieves the 
loss of our fellow countrymen. It is not just your side of the 
aisle, Mr. Chairman, it is this side of the aisle and our 
entire country. We grieve the loss of Ambassador Christopher 
Stevens, Sean Smith, and Navy SEALs Glen Doherty and Tyrone 
Woods.
    I believe we should conduct a thorough and responsible 
investigation into the attack on the United States mission in 
Benghazi. We need to carefully, very carefully investigate 
allegations that have been made over the past week. And we need 
to run them to the ground before we jump to conclusions. We 
should not be about the business of drawing conclusions and 
then looking for the facts.
    Let me start by thanking Secretary Clinton and the State 
Department for cooperating fully with this committee. They 
agreed to all of our witness requests. They offered additional 
witnesses beyond those requested. They promptly organized 
interviews with department officials. And they have been 
collecting documents sought by the committee.
    Today, there are several specific allegations I would like 
to ask the witnesses about. For example, Mr. Eric Nordstrom, a 
former regional secretary officer in Tripoli, he told the 
committee there should have been five diplomatic security 
agents in Benghazi. In other interviews we conducted yesterday, 
we learned that there were, that there were in fact five agents 
in Benghazi on the day of the attack. Should there have been 
even more? We will ask him about this. And I hope he will be 
prepared to answer that, because there has been so many 
allegations in the press saying that there were not. And we 
will ask the State Department for its views as well.
    Another witness, Colonel Andrew Wood, has said he believes 
that a military unit stationed in Tripoli should have had its 
term extended because of security concerns in Libya. Just 
yesterday, we learned that this team was extended not once, but 
twice. Should it have been extended a third time? We need to 
ask. Where else was it needed? And were its functions being 
fully served by others on the ground by the time it left the 
country?
    We should listen carefully to these and other allegations. 
We should listen just as carefully to the responses. I am 
disappointed to say, however, that although the chairman claims 
we are pursuing this investigation on a ``bipartisan basis,'' 
that has simply not been the case. For example, the chairman 
concealed the committee's interactions with Colonel Wood until 
Friday night, when he appeared on national television. The 
chairman then refused requests to make Colonel Wood available 
so we could speak with him, ask him basic questions, and 
prepare for the hearing. We could not even get a phone number. 
The chairman has withheld documents that were provided to the 
committee, which is in violation of the House rules. And he 
effectively excluded Democrats from a congressional delegation 
to Libya this past weekend. We were told about the trip less 
than 24 hours before it was supposed to take place.
    It is a shame that they are resorting to such petty abuses 
in what should be a serious and responsible investigation of 
this fatal attack. The problem is that these actions deny 
members of this committee the ability to effectively and 
efficiently investigate this incident. The members on this side 
of the aisle are just as concerned as the members on the other 
side of the aisle. We each represent about 700,000 each people 
too. We want to make sure that all the questions are answered.
    In contrast, on the Senate side, every member of the 
Foreign Relations Committee, Democrats and Republicans alike, 
joined in a bipartisan letter to the State Department 
requesting information on the attack.
    So what do we do today? What do we do today? My goal is to 
try in some way to put the toxic partisanship behind us and 
focus on the security of our personnel. Every 2 years we put 
our hands up, as Members of this Congress, and we swear to 
protect the people of the United States of America. All of us 
do that. Not just Republicans, not just Democrats, all of us. 
And those people that we promised to protect are not limited to 
just the folks that are within our shores and our boundaries of 
this Nation, but those people who go out and put their lives on 
the line every day for us in foreign lands.
    The chairman has said that our committee will examine not 
only the Libya attack, but security at outposts across the 
Middle East. Mr. Chairman, I fully support this effort. And if 
that is our goal, we have to examine the funding. The fact is 
that since 2011, the House has cut embassy security by hundreds 
of millions of dollars below the amounts requested by the 
President. The House has done that. The Senate restored some of 
these funds, but the final amounts were still far below the 
administration's request. And they were far below the levels we 
enacted in 2010.
    Mr. Chairman, I just heard what you said about making sure 
that we do everything in our power to make sure that this never 
happens again. And I join you in that statement. And we can do 
better. I would like to ask the chairman to join me in doing 
so. Mr. Chairman, I ask you to join me in calling on our 
leaders in the House to immediately consider a supplemental 
funding bill to restore funding for embassy security that was 
cut by the House over the past 2 years.
    According to the Joint Committee on Taxation, we could save 
$2.5 billion per year just by eliminating the tax break for oil 
companies. Even Republicans now agree that we should do this, 
including Governor Romney. We could fully replenish these 
embassy security accounts with just a fraction of that amount. 
Restoring our commitment to embassy security could make a real 
difference for thousands of Americans who serve our country 
overseas, often in extremely dangerous circumstances, as you, 
Mr. Chairman, just stated. And I do agree with you, we should 
act with utmost urgency. Every single moment counts.
    From this day forward, it is my hope that our committee 
will thoroughly investigate this matter in a truly bipartisan 
manner, because our dedicated Foreign Service personnel and our 
Nation deserve nothing less.
    With that, I yield back.
    Chairman Issa. I thank the gentleman. I might note for the 
record that I said this side of the dais, which is all of us on 
the dais relative to all of those in the audience.
    Mr. Cummings. Mr. Chairman, thank you very much.
    Chairman Issa. Thank you. Although you didn't name a 
particular rule that you say I violated, do you have a rule 
that you believe I violated?
    Mr. Cummings. We will provide you with that. We want to get 
on with the hearing. But I promise you I will provide you with 
it.
    Chairman Issa. With that, I would ask unanimous consent 
that our colleagues Mr. Rohrabacher and Ms. Adams be allowed to 
participate, pursuant to our rules. Without objection, so 
ordered.
    We now recognize the chairman of the Subcommittee on 
National Security, and the individual who first began this 
investigation, Mr. Chaffetz.
    Mr. Chaffetz. Thank you. Thank you, Mr. Chairman. And I 
thank all of the members on both sides of the aisle for being 
here today. I thank the chairman for his tenacity in pursuing 
this. I believe we have a moral imperative to pursue this. We 
have four dead Americans. We have others that are critically 
injured. Our thoughts and prayers on both sides of the aisle 
are with those people and their families. We cannot thank them 
enough for their service, their dedication to our Nation. We 
also thank the people here on this panel for participating, as 
I know all four of you care deeply about this country.
    This is a very serious situation. We have to understand how 
we got here, because before 9/11, 2012, and after the 
revolution there in Libya, it was a very tumultuous and 
difficult situation. I would ask unanimous consent to enter 
into the record a document that was provided to us by Mr. Eric 
Nordstrom. It was dated October 1st.
    Chairman Issa. Without objection, so ordered.
    Mr. Chaffetz. I would like to read, Mr. Chairman, the last 
paragraph of that statement that he sent to us. There was, 
again, 230 security incidents in the country of Libya. ``These 
incidents paint a clear picture that the environment in Libya 
was fragile at best, and could degrade quickly, certainly not 
an environment where post should be directed to, quote, 
'normalize,' end quote, operations and reduce security 
resources in accordance with an artificial timetable.''
    Of all the things I have seen and read, that to me is one 
of the most disturbing. And I appreciate the guts of those that 
stood up and will provide us this information, because it does 
take guts to do it.
    I am going to ask that we have some photos here. We have to 
understand how we got here. Broad daylight, June of 2012, two-
car convoy carrying the British ambassador was ambushed 
military-style with rocket propelled grenades in Benghazi. 
Sorry, these pictures seem to be out of order. What you haven't 
seen before--there we go--this was an attack literally weeks 
before what happened in Benghazi.
    Next slide, please. And the next. And the next. And the 
next. These pictures are of an attack that happened in 
Benghazi. The first was a so-called fish bomb. This is the 
compound in Benghazi before the attack. Go to the next slide, 
please. The second bombing was an improvised explosive device 
that was placed on the north gate, breaching the wall. It was a 
test by terrorists, and it was successful. And we didn't 
respond fully and adequately. We didn't acknowledge it. We 
didn't talk about it. We pretended it didn't happen. It was a 
terrorist attack on a U.S. asset in Libya and it was never 
exposed. We pretended it didn't happen. Well, guess what? The 
third time the terrorists came to attack us they were even more 
successful, killing four Americans. I believe personally with 
more assets, more resources, just meeting the minimum 
standards, we could have and should have saved the life of 
Ambassador Stevens and the other people that were there.
    Now, this was a massive attack, no doubt about it. We are 
getting new details. And I believe, Mr. Chairman, the reason we 
have those details is because of this hearing.
    Mysteriously, the State Department decided to give a press 
briefing last night. We weren't invited. Certain news outlets 
weren't invited. Any reasonable person looking at the security 
situation in Libya had to come to the conclusion that it was 
tumultuous at best. I wish I could tell you everything that I 
learned. I did go to Libya. I did drop everything. I had the 
same type of notice that was given to the Democrats. In fact, 
the State Department sent an attorney to follow me in my every 
footstep. So to suggest you didn't have an opportunity to go is 
absolutely wrong. I wish I could share everything that I 
learned there. But we have to be careful about the sensitive 
secure information, about sources and methods in a classified 
setting. I think some of the information that the State 
Department has shared overstepped some of those bounds. Let us 
be careful today to not reveal some of that classified 
information. It has been too hard, too difficult to get basic 
information. I will tell you, though, that when I was in Libya 
a good part of the day, never once did a person ever mention a 
video. Never. And I am fascinated to know and understand from 
the President of the United States, from the Secretary of 
State, and from the Ambassador to the United Nations how they 
can justify that this video caused this attack. It was a 
terrorist attack. Let's be honest about it.
    Mr. Chairman, I appreciate the time. I look forward to this 
hearing. May God bless those men and women who serve us. I 
thank you for being here. And let's always remember those who 
serve this Nation. I yield back.
    Chairman Issa. I thank the gentleman. The gentleman is 
correct, both sides were informed once we had gotten clearance 
for Libya. And with that, we recognize the gentlelady from the 
District of Columbia for a response.
    Ms. Norton. Mr. Chairman, the tragic events in Benghazi 
point up the hazards of serving our country go far beyond the 
military. I agree with Mr. Chaffetz that perhaps had there been 
more resources we might have had a different result. But I must 
note that while the Republican budget increases the budget of 
the Defense Department, it slashes the budget that would have 
protected these diplomats.
    The Ambassador, Chris Stevens, and the three others who 
died were men of unusual courage who died heroically protecting 
their mission. The best tribute to the Ambassador comes from 
the mourning in the streets that we saw from the citizens of 
Benghazi and of Libya. It must be said that Ambassador Stevens 
did something that you rarely see in diplomatic work across the 
world. In little more than a few months after the Arab Spring, 
he had already established an entirely new and promising 
relationship between the United States of America and Libya. 
What an extraordinary man he must have been.
    So I thank you, Mr. Chairman, for holding this hearing this 
afternoon, even in the midst of a campaign. It was and is 
important to hold a hearing now, when memories are fresh. And I 
certainly want to go on record for thanking the State 
Department, especially Ambassador Clinton, for what the 
chairman says has been the very open cooperation of the 
Department with this hearing.
    I want to suggest that when there has been loss of life of 
this kind in service to the United States, there can be no 
difference between Democrats and Republicans in desiring a 
hearing to discover exactly what transpired. That is why I 
regret that the spirit of bipartisanship and openness that came 
from the State Department has not occurred here in this 
committee, that there has not been the sharing of information 
and witnesses so that both sides could be prepared to question 
witnesses and find out exactly what has happened.
    I yield the remainder of my time to Mr. Connolly.
    Mr. Connolly. I thank my colleague. And I welcome the 
witnesses here today. I join my colleagues in expressing the 
desire for a bipartisan inquiry. And I certainly hope that the 
committee will endeavor to make it genuinely bipartisan. I 
regret the fact that a trip to Libya occurred with no members 
of this side of the aisle in attendance. I had the privilege of 
going with David Dreier, the Republican chairman of the Rules 
Committee, to Libya in May. It is an inherently unstable 
situation. It was then, it is now. It is one we Americans hope 
will stabilize over time. I certainly hope that today's hearing 
is not going to be perceived as an effort to exploit a tragedy 
for political purposes 27 days out from an election. I hope in 
fact it is the down payment of a serious inquiry into how can 
we make this kind of thing not recur? How can we redouble our 
efforts to provide security to the brave men and women who 
serve in our Foreign Service? How can we make sure that we take 
a fresh look at the resources required and make sure, on a 
bipartisan basis, we are providing them?
    So no good is done to the security of the United States to 
politicize this tragedy. And I can't imagine that the late 
Ambassador Chris Stevens would want us to do that. And so I 
hope that we will proceed in a bipartisan way and get to the 
bottom of not only what happened, but what are the forces at 
work that led to that. Far beyond just the issue of what our 
failures were, what is the nature of the challenge we face in 
countries like Libya post-Arab Spring?
    Thank you, and I thank my colleague for yielding.
    Chairman Issa. Thank you. I might note that the funding 
that is currently enjoyed by the State Department was voted 
bipartisan, one more Democrat voting for the appropriations 
than Republicans. So hopefully we now can understand how 
bipartisan it was. In fact, it was voted by more Democrats than 
Republicans.
    The chair will now recognize our panel of witnesses. First 
of all, Lieutenant Colonel Andrew Wood is a member of the Utah 
National Guard and, I believe, a Department of Interior 
employee. Mr. Eric Nordstrom is a regional security officer at 
the United States Department of State. Ambassador Patrick J. 
Kennedy is Under Secretary for Management at the Department of 
State, and a frequent witness. Ms. Charlene Lamb is a Deputy 
Assistant Secretary for International Programs at the U.S. 
Department of State.
    I want to welcome you. And pursuant to our rules, I would 
ask that you rise to take the oath. Raise your right hands. Do 
you solemnly swear or affirm that the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    Let the record reflect that all witnesses answered in the 
affirmative. Please take your seats.
    Pursuant to our rules and tradition, each witness will have 
5 minutes. Please, when you see your time expiring, wrap up. 
Your entire prepared statements will be placed in the record. I 
will take a moment only to admonish that Colonel Wood, we got 
yours fairly late, but we understand that this is not a regular 
shtick for you. For the administration, I am a little 
disappointed. We do have a 24-hour rule. And Ambassador 
Kennedy, if you would take back that it arrived, it is in, but 
we would appreciate in the future getting it a little earlier, 
because I think members on both sides pore over it.
    With that, we recognize Lieutenant Colonel Wood.

                       WITNESS STATEMENTS

                    STATEMENT OF ANDREW WOOD

    Colonel Wood. Thank you. I am Lieutenant Colonel Andrew 
Wood. I am a member of the Utah National Guard, with 24 years 
of service as a Special Forces soldier. I was mobilized for the 
Winter Olympics in 2002, Afghanistan from September of 2003 to 
May of 2004, and for counterterrorism work in the southern 
Philippines in August of 2007 to May of 2008. I currently work 
for the U.S. Bureau of Reclamation as an Upper Colorado 
regional security officer. I am responsible to Reclamation for 
a security program that oversees 58 high and significant hazard 
dams in five Western states, one of which is Glen Canyon Dam, a 
national critical infrastructure facility.
    Upon hearing of the death of Ambassador Stevens, and later 
the congressional inquiry, I identified myself to my 
congressional representative's staff as a person with intimate 
knowledge of the security situation prior to the attack. I was 
subsequently contacted, and began a dialogue with staff 
investigators.
    I made a personal decision to come forward with 
information, and do not represent DOD or any government agency. 
I had unique access and placement to many government leaders 
and agencies while working in Libya. I feel duty bound to come 
forward in order to inform and provide a portion of ground 
truth information. I feel a sense of honor for those 
individuals who have died in the service of their country. I 
realize much of my work in Libya was entangled in sensitive 
government work, and I must be careful not to betray the trust 
and confidences that have been placed in me. The killing of a 
U.S. Ambassador is a rare and extraordinary thing, and requires 
our attention as a people. As a citizen, I made the 
determination that this outweighs all other interests, and will 
risk whatever circumstances may result from my testimony.
    I served as Site Security Team commander in Libya from 12 
February to 14 August of this year, 2012. I was mobilized from 
the Utah National Guard in title 10 status and reported to 
Special Operations Command Africa, SOCAFRICA, which serves 
directly under AFRICOM. I was detailed in title 22 status to 
the Department of State and assumed command of the SST. The SST 
element consisted of 16 members. It is my understanding that it 
was drafted by the National Security Council to meet the 
demanding security challenges facing the Department of State 
and their requirement to reestablish diplomatic relations with 
a post-Qadhafi or free Libya. The SST loaned considerable 
support to the Department of State's security posture in this 
uncertain and volatile environment.
    The SST's mission was to support and answer to the chief of 
mission in Libya. I worked directly for the regional security 
officer. We provided security support, medical support, 
communications support, for every facet of security that 
covered the embassy.
    As the SST commander, I had a seat on the country team. I 
was closely involved with the operational planning and support 
to the RSO's security objectives. The embassy staff lived and 
worked together at two locations, in Tripoli and embassy 
property in Benghazi. The SST supported security movements for 
diplomatic officers in and around Tripoli and other parts of 
Libya as their work required. On two occasions I sent SST 
members to Benghazi to support and bolster security at that 
location. The SST was closely integrated with regular 
diplomatic security agents working directly for the RSO, as 
well as Mobile Security Deployment teams.
    I traveled to Benghazi on two occasions with the RSO, once 
with the RSO to evaluate the security situation there, and once 
to conduct some work for the defense attache's office. I was 
there a second time in June when the U.K. ambassador's convoy 
was attacked. I responded with DS agents in order to help 
provide medical and security assistance to wounded U.K. 
security personnel. I conducted a post-attack investigation 
ofthe ambush or assault.
    I regularly met with and held frequent conversations with 
Ambassadors Cretz and Stevens and other members of the security 
team. In June, when Eric Nordstrom rotated out, I was the 
senior member of the country team with the exception of 
Ambassador Stevens. We lived and worked closely together in an 
atmosphere that is common to an expeditionary post. Ambassador 
Stevens was an avid runner, and played tennis as well. The SST 
was heavily involved in performing his security detail when he 
ran. I ran with him on several occasions.
    The SST provided an important link for the country team to 
SOCAFRICA with its intelligence assets and resources. There was 
a good exchange of information between SOCAFRICA and the RSO. 
There was a great working relationship between SST and 
diplomatic security agents and the MSD members of the embassy 
post throughout Libya.
    I reported three times a week through a video 
teleconference to SOCAFRICA and sent daily situation reports. I 
had the communications capability to provide a direct link to 
SOCAFRICA 24/7. I no longer have access to email or documents 
that I worked with on a daily basis, as much of this was 
contained on AFRICOM servers and computers that I worked 
through. My recollection of dates is mostly from memory, and I 
will need to re-access that information in order to specify 
dates with greater certainty.
    The State Department's decision not to extend SST's 
security work beyond the 5th of August terminated our security 
work in this capacity. The military members of my team were in 
the process of changing status from title 22 back to title 10 
shortly before my departure.
    The situation on the ground was continuously updated with 
reports that I sent to my military chain of command and CC'd 
the RSO on. The RSO sent information on security and threats in 
a similar manner up his chain of command.
    While the sound of gunfire in and around Tripoli subsided 
from February to April, the situation remained unstable. 
Libyans struggled with a transitional government that hesitated 
to make decisions, and were forced to rely upon local and 
tribal militias with varying degrees of loyalty. In late 
spring, the police were allowed to return to work to help with 
traffic, but were limited to that only. Fighting between 
militias was common when I departed. Militias appeared to be 
disintegrating into organizations resembling freelance criminal 
operations. Targeted attacks against Westerners were on the 
increase. In June, the Ambassador received a threat on 
Facebook, with a public announcement that he liked to run 
around the embassy compound in Tripoli. When I arrived in 
February, there were three MSD teams on the ground. Ambassador 
Cretz was confronted with having to lose one of those teams, 
and requested an equal number of regular diplomatic security 
agents. The Ambassador struggled with renewing the SST beyond 
April 5th. That is Ambassador Stevens. The second MSD team was 
withdrawn shortly after Ambassador Cretz's departure, and the 
last MSD team was restricted to performing security work only--
restricted from performing security work only, and limited only 
to training local guard force members in July. The remaining 
MSD was withdrawn at about the same time the SST security work 
was terminated. The RSO struggled to maintain these losses with 
regular diplomatic security personnel.
    The security in Benghazi was a struggle, and remained a 
struggle throughout my time there. The situation remained 
uncertain, and reports from some Libyans indicated it was 
getting worse. Diplomatic security remained weak. In April, 
there was only one U.S. diplomatic security agent stationed 
there. The RSO struggled to obtain additional personnel, but 
there was never--but was never able to attain the numbers he 
felt comfortable with.
    I hope the information I provide will be put together with 
data points from others so an accurate picture can be obtained. 
We need to be dedicated to the understanding--to understand the 
problems that surrounded this attack in order to find a 
solution. Our failure to do so will result in repeated 
instances that allow our adversaries to take an advantage over 
us. My purpose in conveying this information is to prevent 
their ability to take the life of another ambassador or kill 
another valuable and talented public servant working for the 
diplomatic service of their country.
    Chairman Issa. Thank you.
    [Prepared statement of Lieutenant Colonel Wood follows:]

    [GRAPHIC] [TIFF OMITTED] T9871.001
    
    [GRAPHIC] [TIFF OMITTED] T9871.002
    
    [GRAPHIC] [TIFF OMITTED] T9871.003
    
    Chairman Issa. Mr. Nordstrom.

               STATEMENT OF ERIC ALLAN NORDSTROM

    Mr. Nordstrom. Good morning, Chairman Issa, Ranking Member 
Cummings, and other distinguished members of the committee. My 
name is Eric Nordstrom, and I currently serve as a Supervisory 
Special Agent with the U.S. Department of State's Bureau of 
diplomatic security. I joined the Department in April 1998, and 
I have served in domestic and overseas postings, including 
Washington, D.C., Tegucigalpa, Honduras; Addis Ababa, Ethiopia; 
New Delhi, India; and most recently as the regional security 
officer at the U.S. embassy in Tripoli, Libya, a position I 
held from September 21st, 2011, until July 26th, 2012. As the 
regional security officer, or RSO, at the U.S. embassy in 
Tripoli, I served as the principal adviser to Ambassadors Cretz 
and Stevens on security and law enforcement matters.
    I am here today to provide testimony in support of your 
inquiry into the tragic events of September 11, 2012, including 
the murders of Ambassador Stevens, Sean Smith, Glen Doherty, 
and Tyrone Woods. I had the pleasure of working with Ambassador 
Stevens during the final months of my tour in Libya, and would 
echo what many are saying, the loss of Ambassador Stevens is 
not only tragic for his family and sad for our country, but his 
death will prove to be a devastating loss for Libya, struggling 
to recover from its recent civil war. My family and I would 
like to offer our personal condolences to the families of these 
four patriots who gave their lives in the service of their 
country.
    My contribution to our Nation's efforts in Libya will prove 
to be only a small part of a wider effort. There were many of 
us dedicated to the mission in Libya, both at home and abroad. 
To my colleagues who served with me and to those who are 
presently there in the aftermath of this attack, you have your 
country's sincere thanks and prayers.
    Let me say a word about the evening of September 11th. I 
had not seen an attack of such ferocity and intensity 
previously in Libya, nor in my time with the diplomatic 
security Service. I am concerned that this attack signals a new 
security reality, just as the 1983 Beirut Marine barracks 
bombings did for the Marines, the 1998 East Africa embassy 
bombings did for the State Department, and 9/11 did for our 
entire country. However, we must remember that it is critical 
that we balance our risk mitigation efforts with the needs of 
our diplomats to do their jobs. The answer cannot be to operate 
from a bunker. Arriving in Tripoli in the midst of the Libyan 
civil war, it was immediately obvious to me that the post-
revolution Libya was a weakened state, exhausted from their 
civil war, and operating under fragmented and paralyzed 
government institutions. They were barely able to protect 
themselves from armed gangs, Qadhafi loyalists, or roving 
militias. As a result, the Libyan temporary government was 
unable to extend security assets to diplomatic missions in 
customary ways that we expect around the world. We could not 
rely on the Libyan Government for security, intelligence, and 
law enforcement help to identify emerging threats or to ask 
them for assistance in mitigating those threats.
    In Benghazi, however, the government of Libya, through the 
17th February Martyrs Brigade, was able to provide us 
consistent armed security since the very earliest days of the 
revolution. Routine civil unrest, militia on militia violence, 
general lawlessness, and surprisingly, motor vehicle accidents, 
were the primary threats facing our mission and personnel 
during my time in Libya.
    As Colonel Wood noted, in the spring of 2012 we noted an 
increasing number of attacks and incidents which appeared to 
target foreign-affiliated organizations. In response to these 
incidents, we implemented a number of changes to our security 
posture designed to mitigate those threats and disrupt any 
planning by would be attackers. Those efforts included 
reviewing and practicing our emergency preparedness drills, and 
most importantly, we reiterated our requests at all levels of 
government for a consistent armed host nation security force to 
support the mission. We also requested security staffing and 
extensions of the DOD Security Support Team. In my opinion, the 
primary security staffing issue that we dealt with was 
maintaining U.S. security personnel, whether diplomatic 
security agents or Security Support Team members, for a 
sufficient amount of time to enable the full training and 
deployment of a local bodyguard unit.
    In early July 2012, prior to my departure, post requested 
continued TDY staffing of 15 U.S. security professionals, 
either DS field office agents, Mobile Security Deployment 
agents, or DOD/SST personnel, plus retention of a six-agent 
Mobile Security Deployment training team that would work with 
our newly created bodyguard unit. Earlier post extension 
requests for our DOD/SS Team in November 2011 and March 2012 
were approved. Also, in March 2012 I requested DS staffing 
levels in Tripoli of five full-time agents to be permanently 
assigned there, 12 temporary duty DS agents, and six Mobile 
Security Deployment DS agents, again to train our newly created 
bodyguard unit. A request to maintain a level of five TDY DS 
agents in Benghazi was included in that same March 2012 
request. Our long term security plan in Libya was to deploy an 
armed, locally hired Libyan bodyguard unit. Due to Libyan 
political sensitivities, armed private security companies were 
not allowed to operate in Libya. That was the case under 
Qadhafi, and that was the case under the free Libya.
    Our existing uniformed static local guard force, both in 
Tripoli and Benghazi, were unarmed, similar to our local guard 
forces at many other posts around the world. Their job is 
simple. It is to observe, report, and alert armed host nation 
security or armed response forces, possibly DS agents if that's 
the case. The use of local nationals as armed bodyguards is a 
routine practice in the Department, and we often do so to 
comply with the local firearms regulations of the host nation.
    Local nationals provide us with continuity, local 
expertise, threat awareness in their community, and language 
and cultural skills. I am confident that the committee will 
conclude that officers and employees of the Department of State 
diplomatic security service and mission Libya conducted 
themselves professionally, and with careful attention to 
managing the people and budgets in a way that reflected the 
gravity of the task.
    I am proud of the work that our team accomplished in Libya 
under extraordinarily difficult circumstances. The protection 
of our Nation's diplomats, our embassies and consulates, and 
the work produced there is deserving of the time and treasure 
invested.
    I am glad to further discuss my experiences, and hope it 
provides beneficial to the committee, the State Department and 
my fellow DS agents who are protecting and advancing U.S. 
interests abroad. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to appear before you today. May 
God bless our country as we work towards peace in a contentious 
world. I stand ready to answer any questions that you might 
have of me.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Nordstrom follows:]

    [GRAPHIC] [TIFF OMITTED] T9871.004
    
    [GRAPHIC] [TIFF OMITTED] T9871.005
    
    [GRAPHIC] [TIFF OMITTED] T9871.006
    
    [GRAPHIC] [TIFF OMITTED] T9871.007
    
    [GRAPHIC] [TIFF OMITTED] T9871.008
    
    [GRAPHIC] [TIFF OMITTED] T9871.009
    
    [GRAPHIC] [TIFF OMITTED] T9871.010
    
    [GRAPHIC] [TIFF OMITTED] T9871.011
    
    [GRAPHIC] [TIFF OMITTED] T9871.012
    
    [GRAPHIC] [TIFF OMITTED] T9871.013
    
    [GRAPHIC] [TIFF OMITTED] T9871.014
    
    [GRAPHIC] [TIFF OMITTED] T9871.015
    
    Chairman Issa. Ms. Lamb?

                 STATEMENT OF CHARLENE R. LAMB

    Ms. Lamb. Chairman Issa----
    Chairman Issa. Could you turn your mic on, please?
    Ms. Lamb. I am sorry.
    Chairman Issa. That's all right. It is your first time.
    Ms. Lamb. Chairman Issa, Ranking Member Cummings, members 
of the committee, my name is Charlene Lamb. I am Deputy 
Assistant Secretary for International Programs in the Bureau of 
diplomatic security at the Department of State. I have been in 
law enforcement for 35 years, including 17 consecutive years 
stationed abroad as a regional security officer in Nicaragua, 
Tanzania, Kuwait, Guatemala, and Germany. I am here today to 
share our best information to date about what happened in 
Benghazi on September 11th.
    As you know, there are ongoing investigations and reviews 
being conducted, and we are speaking today with an incomplete 
picture. But as this process moves forward and more information 
becomes available, we will continue to engage closely with 
Congress.
    Let me begin by describing the actual compound in Benghazi. 
It is more than 300 yards long and nearly 100 yards wide. The 
main building was divided into two sections. The public section 
included common areas and meeting space. The private section 
was a residential area that included a safe haven. A second 
building, Building B, housed diplomatic security agents. The 
tactical operations center occupied a third building. The 
fourth building on the compound served as barracks for the 
Libyan 17th February Brigade members.
    After acquiring the compound, we made a number of security 
upgrades. Among other steps, we extended the height of the 
outer wall to 12 feet, with masonry concrete, barbed wire, and 
concertina razor wire. We increased the external lighting and 
erected Jersey barriers outside the perimeter. We also added 
equipment to detect explosives, as well as an imminent danger 
notification system. We installed security grills on windows 
accessible from the ground, and included escape windows with 
emergency releases.
    There were five diplomatic security agents on the compound 
September 11th. There were also three members of the Libyan 
17th February Brigade. In addition, a well trained U.S. quick 
reaction security team was stationed nearby at the embassy 
annex.
    All of these measures and upgrades were taken in 
coordination with security officials in Benghazi, Tripoli, and 
Washington. I work closely with more than 275 facilities around 
the world, determining the right level of security for each 
one. It is an intensive, ongoing, constantly evolving process, 
one that I appreciate and understand from my own time on the 
ground as a diplomatic security officer.
    That brings me to the events of September 11th itself. At 
approximately 9:40 p.m. local time, dozens of attackers 
launched a full scale assault. They forced their way through 
the pedestrian gate, used diesel fuel to set fire to the Libyan 
17th February Brigade members' barracks, and then proceeded 
towards the main building. A diplomatic security agent working 
in the Tactical Operations Center immediately activated the 
imminent danger notification system. He also alerted the quick 
reaction security team stationed nearby, the Libyan 17th 
February Brigade, the embassy in Tripoli, and the diplomatic 
security Command Center in Washington.
    One agent secured Ambassador Stevens and Sean Smith, the 
information management officer, in a safe haven. The attackers 
used diesel fuel to set the main building ablaze. Thick smoke 
rapidly filled the entire structure. The agent began leading 
the Ambassador and Sean Smith toward the emergency escape 
window. Nearing unconsciousness himself, the agent opened the 
emergency escape grill window and crawled out. He then realized 
they had become separated in the smoke, so he reentered and 
searched the building multiple times. Finally, the agent, 
suffering from severe smoke inhalation, barely able to breathe 
or speak, exited to the roof. Other agents retrieved their M4 
submachine guns from Building B. When they attempted to return 
to the main building, they encountered armed attackers and 
doubled back. They regrouped, made their way to a nearby 
armored vehicle, and then drove over to assist the agent on the 
roof in search for the Ambassador and Mr. Smith. After numerous 
attempts, they found Mr. Smith. Unfortunately, he was already 
deceased. They still could not find the Ambassador.
    The quick reaction security team arrived with 40 members of 
the Libyan 17th February Brigade. They all continued the search 
for the Ambassador. Then, at approximately 11 p.m., the Libyans 
insisted for everyone's safety they needed to evacuate the 
site. The combined security team made a final search for the 
Ambassador before leaving the annex in an armored vehicle.
    Ms. Lamb. They took heavy fire as they pulled away from the 
main building and on the street outside the compound but were 
able to make their way to the annex----
    Mr. Chaffetz. Point of order. Point of order.
    Chairman Issa. The gentlelady will suspend.
    The gentleman will state his point of order.
    Mr. Chaffetz. Mr. Chairman, I am concerned that we are 
getting into classified issues that deal with sources and 
methods that would be totally inappropriate in an open forum 
such as this.
    Chairman Issa. The gentlelady, Ms. Lamb, Mr. Kennedy, is it 
your intent to declassify any or all material in Ms. Lamb's 
statement?
    Mr. Kennedy. Mr. Chairman, Mr. Chaffetz, the information 
that we are presenting today in open session is entirely 
unclassified.
    Mr. Chaffetz. Mr. Chairman, I totally object to the use of 
that photo.
    Chairman Issa. The gentleman will state his reason.
    Mr. Chaffetz. I believe it to be classified information 
that goes to sources and methods and should not be disseminated 
in a public manner such as State is doing here today.
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. Ranking Member?
    Mr. Cummings. I was just wondering, these are people from 
the State Department. They apparently have clearance to show 
this information. I assume they wouldn't come here unless it 
was cleared. So I would just----
    Chairman Issa. Yeah. I appreciate the gentleman's comments.
    Ambassador, it is your statement that these either are now 
declassified or you are declassifying them at this hearing; is 
that correct? In other words, is this cleared through your 
channels to be given here today?
    Mr. Kennedy.  This information is available, sir, for 
public dissemination, yes, sir.
    Chairman Issa. Okay.
    Colonel Wood. You can Google this.
    Chairman Issa. The gentleman's point of order, although 
noted--it is the prerogative of the executive branch to 
determine what is not classified.
    The one thing I would note, my able staff has compared last 
night's press conference and the opening statement of Ms. Lamb, 
and it appears as though her opening statement should have been 
given to us last night since it was obviously the one given to 
the press.
    We will reset----
    Mr. Chaffetz. Mr. Chairman?
    Chairman Issa. Yes? The gentleman will state his comment.
    Mr. Chaffetz. Can I make one more comment?
    I was told specifically while I was in Libya I could not 
and should not ever talk about what you are showing here today.
    Mr. Kennedy. Mr. Chairman, if I might, this is commercial 
digital imagery that we--from a commercial satellite source, 
sir.
    Chairman Issa. Well, I appreciate that. Ultimately, I am 
going to side with the administration, that you have a right to 
show what you want to show and consider it unclassified.
    I would, again, recognize that we were shown documents this 
morning in camera that said unclassified, but they weren't 
turned over to the committee. If you have anything else that 
you intend to use, if it hasn't been provided to the committee, 
I would strongly suggest that that binder and other materials 
be provided at this time.
    Again, it is your prerogative to declassify. It is not your 
prerogative to selectively tell a Member of Congress something 
is classified and then come to an open hearing and say it is 
not. Since Mr. Chaffetz visited with your people, people that 
work for you, Mr. Kennedy, Secretary Kennedy, I would ask that 
you rectify this in the future.
    The gentlelady may----
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. I have ruled that they----
    Mr. Cummings. I just have a question, a point of order, Mr. 
Chairman. I just have one question so that we will be clear, 
because we don't want any misconceptions.
    Just, Ambassador, can we get that on Google?
    Chairman Issa. This is not a point of order.
    Mr. Cummings. I just--I want to know. I mean, I am just 
curious.
    Chairman Issa. The ranking member----
    Mr. Cummings. Thank you for letting me ask my question.
    Chairman Issa. --is not stating a point of order.
    Mr. Cummings. Thank you.
    Chairman Issa. Thank you.
    Please reset it for 2 minutes.
    If you could finish within 2 minutes, Ms. Lamb, we would 
appreciate it.
    Ms. Lamb. Yes.
    Chairman Issa. The gentlelady is recognized.
    Ms. Lamb. Thank you.
    In the early morning, an additional security team arrived 
from Tripoli and proceeded to the annex. Shortly after they 
arrived, the annex started taking mortar fire, with as many as 
three direct hits on the compound. It was during this mortar 
attack that Tyrone Woods and Glen Doherty were killed and a 
diplomatic security agent and a quick reaction security team 
were critically wounded.
    A large number of Libyan Government security officers 
subsequently arrived and escorted the remaining Americans to 
the airport. We were then able to confirm reports that the 
Ambassador's body was at the Benghazi General Hospital, and the 
Department coordinated the transfer of his remains to the 
airport.
    Before I close, I would like to say: The men and women who 
risked their lives in the service of our country are heroes. I 
have served with many of our security professionals around the 
world. They are my friends and my colleagues, and I trust them 
with my life.
    Thank you.
    Chairman Issa. Thank you.
    [Prepared statement of Ms. Lamb follows:]

    [GRAPHIC] [TIFF OMITTED] T9871.016
    
    [GRAPHIC] [TIFF OMITTED] T9871.017
    
    [GRAPHIC] [TIFF OMITTED] T9871.018
    
    [GRAPHIC] [TIFF OMITTED] T9871.019
    
    [GRAPHIC] [TIFF OMITTED] T9871.020
    
    [GRAPHIC] [TIFF OMITTED] T9871.021
    
    [GRAPHIC] [TIFF OMITTED] T9871.022
    
    [GRAPHIC] [TIFF OMITTED] T9871.023
    
    Chairman Issa. I would direct that that chart be taken 
down.
    Upon further reflection, you know, although commercially 
available, in this hearing room we are not going to point out 
details of what may still, in fact, be a facility of the United 
States Government or more facilities.
    So you may continue. I respect your right to deliver what 
you want. But I will caution, once again, Ambassador, that that 
which is told to us on a classified basis needs to remain that 
way. You can't have it one day a classified briefing, which I 
attended yesterday, and then the same--substantially same 
material be presented unclassified the next day.
    The Ambassador is recognized.

            STATEMENT OF THE HON. PATRICK F. KENNEDY

    Mr. Kennedy. Thank you very much.
    Chairman Issa, Ranking Member Cummings, distinguished 
members of the committee, I would like to share a few words 
with you. Quote, ``Libyans face significant challenges as they 
make the transition from an oppressive dictatorship to a stable 
and prosperous democracy, but it is clearly in the U.S. 
interest and it will be an extraordinary honor to represent the 
United States during this historic period of transition in 
Libya.''
    Those were Ambassador Stevens's words at his confirmation 
hearing, and they help us understand why he went to Libya, his 
passion for the country, its people, and the mission. He 
believed that no challenge was too big or too hard if our 
national security interest and our values were at stake. And 
that is what is at stake in Libya.
    At your request, in the spirit of cooperation, we are here 
today to do our best to answer your questions. But I ask you to 
understand that we do not yet know all the answers or results 
of ongoing reviews. And there may be, as the chairman had 
noted, information that is classified and can only be dealt 
with in classified session.
    As Secretary Clinton has said, the American people, 
especially the families who lost loved ones, deserve a full and 
accurate accounting. We at the State Department are determined 
to get this right, and nobody will hold us more accountable 
than we hold ourselves. We lost friends and colleagues, a 
cross-section of those who put their lives on the line every 
day in the inherently dangerous work of diplomatic service to 
our Nation.
    The Secretary has already appointed an accountability 
review board and has begun working to determine whether our 
security systems and procedures were appropriate in light of 
the threat environment, whether they were properly implemented, 
as well as any lessons that may impact our work around the 
world. The Secretary has asked us to work as quickly and 
transparently as possible without sacrificing diligence and 
accuracy.
    This is a complicated review that will take time as we 
learn more about what happened and as we are better able to 
assess the information we have. Until then, it is an incomplete 
picture, and, as a result, our answers today will also be 
incomplete.
    No one in the administration has claimed to know for 
certain all the answers. We have always made clear that we are 
giving the best information we have at the time, and that 
information has evolved. For example, if any administration 
official, including any career official, were on television on 
Sunday, September 16th, they would have said what Ambassador 
Rice said. The information she had at that point from the 
intelligence community is the same that I had at that point. 
Clearly, we know more today than what we did on the Sunday, 
September 17th, after the attack. But we will continue 
consulting with you throughout this process.
    I would like to address a broader question that may be on 
your minds: Why is the United States in Benghazi when there are 
real dangers there? This question does go to the heart of what 
we do for the State Department and America's role in the world.
    Ambassador Stevens arrived in Benghazi during the height of 
the revolution. The city was at the heart of the opposition to 
Colonel Qadhafi, and the rebels there were fighting for their 
lives. It was dangerous. A bomb exploded in the parking lot of 
his hotel. The transitional authorities struggled to provide 
basic security. Extremists thought to exploit their own agenda.
    But Chris understood that the State Department must operate 
in places where our military cannot or does not, there are no 
other boots on the ground, and where there are serious threats 
to our security. He understood that the new Libya was being 
born in Benghazi and it was critical that we have an active 
presence there.
    That is why Ambassador Stevens stayed in Benghazi in those 
difficult days and returned as Ambassador as the Libyans began 
their difficult transition to democracy. He knew his mission 
was vital to our interests and values and was an investment 
that would pay off in a strong partnership with a free Libya.
    After the September 11 attack, the Libyan people showed how 
right he was. Thousands marched in the streets of Benghazi, 
mourning their fallen friend with signs saying, ``Chris Stevens 
was a friend to all Libyans.'' They overran extremist bases. 
Civilians insisted that the militia disarm and support the new 
democracy. They confirmed what Chris Stevens knew so well: The 
United States is better off because he went to Benghazi.
    We must review the security procedures in place and improve 
them, asking ourselves if our people had what they needed and 
how we can reduce the risk of this happening again. But one 
thing is not up for debate today or any other day: Those who 
risk their lives in the service of our country are heroes, and 
we must support them, particularly those who provide security 
in an unsecure environment.
    Diplomacy must be practiced in dangerous places. The United 
States sends people to more than 275 diplomatic posts. No other 
agency is asked to stretch so far. We do this because we have 
learned that when America is absent, especially from dangerous 
places, there are consequences. Extremism takes root, our 
interests suffer, and our security is threatened.
    As the Secretary says, leadership means showing up. That is 
what we do. That is how we protect this country and sustain its 
global leadership. We can and we will reduce the risk to those 
who serve, but no one can eliminate it. Our facilities must be 
protected, but not all are fortresses.
    I want to be clear: We regularly assess risk and resource 
allocation, a process involving the considered judgments of 
experienced professionals on the ground and in Washington using 
the best available information. The assault that occurred on 
the evening of September 17th, however, was an unprecedented 
assault by dozens of heavily armed men.
    We must continue deploying our diplomats and development 
professionals to dangerous places like Benghazi. There is no 
alternative. As the Secretary has said, we will not retreat, we 
will keep leading, and we will stay engaged everywhere in the 
world. All of us in the State Department will honor our fallen 
colleagues by continuing their work with the same purpose and 
resolve they demonstrated.
    Mr. Chairman, thank you again for this opportunity. The 
Congress is a crucial partner in providing diplomatic security, 
so I look forward to working with you and the members of this 
committee to continue providing America's diplomats with the 
support and resources needed to carry out their important work.
    Thank you, sir.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Kennedy follows:]

    [GRAPHIC] [TIFF OMITTED] T9871.024
    
    [GRAPHIC] [TIFF OMITTED] T9871.025
    
    [GRAPHIC] [TIFF OMITTED] T9871.026
    
    [GRAPHIC] [TIFF OMITTED] T9871.027
    
    Chairman Issa. Ambassador Kennedy, yesterday you made a 
significant press announcement. I want to ask you a couple of 
questions.
    This morning, and only this morning, we were shown, our 
staff was shown a book, a binder in camera. The documents in 
that book all indicate unclassified. Are you prepared to 
deliver those documents to us at this time?
    Mr. Kennedy. Mr. Chairman, my understanding is that we did 
make information available to the committee both last night and 
this morning, and we have that material still here. We would be 
glad to meet with the committee or committee staff afterwards.
    Chairman Issa. No, we want it for this hearing. The 
information when looked at in camera was unclassified but, in 
fact, perhaps embarrassing. Will you make that information 
available at this time so I can circulate it to all the Members 
on the dais?
    Mr. Kennedy. Mr. Chairman, the information--while 
individual pieces may be unclassified, the totality of the 
information is such that it must be considered to be 
restricted, and the context is all important.
    Chairman Issa. I agree with you.
    And, with that, I now move that the unclassified document 
of September 11th, 2012, appearing above the signature of the 
Ambassador, be placed in the record.
    Without objection, so ordered.
    And the staff will distribute it.
    Additionally, I move that the document of March 28th, 2012, 
be placed in the record.
    Without objection, so ordered.
    Additionally--and these will have to be printed--the 
document of August 2nd, 2012, from the Ambassador, and of July 
9th, 2012, be placed in the record.
    Without objection, so ordered.
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. Yes?
    Mr. Cummings. Just so that we will be clear, you already 
have the documents? I just want to be clear, that is all.
    Chairman Issa. In real time, a whistleblower has provided 
us with some of these documents. We confirmed that these 
documents are similar to the documents being--or, identical to 
the documents being withheld. It is the determination of the 
chair that these documents were responsive, unclassified, and 
appropriate for discovery.
    Mr. Cummings. Mr. Chairman, I was just asking if you 
already had the documents.
    Chairman Issa. Well, if you will notice, I am looking at 
one on an iPad.
    Mr. Cummings. Yeah. You already have them. Okay, that is 
all I asked.
    Chairman Issa. We do have them, and others. So they will be 
circulated.
    Mr. Cummings. To both sides?
    Chairman Issa. To both sides, of course.
    Mr. Cummings. Thank you.
    Chairman Issa. They are now documents of this hearing and 
of this--and before I do my opening statement, or before I do 
my questioning, Ambassador, I don't like doing this, but, 
ultimately, the cooperation we received has caused individuals 
to say things which are consistent with these documents which 
are being withheld. And since the documents are unclassified, 
we can reach no other conclusion but that they are 
inappropriate.
    And, quite frankly, after my years in the military and my 
years on the Hill and my years on the Select Intelligence 
Committee, to say that a broad array of unclassified documents 
somehow in totality makes classified is to make everything you 
do unavailable to the Congress.
    With that, we will begin the clock.
    Mr. Nordstrom, you have done a lot of things that I 
appreciate in communication. October 1st, you sent a statement, 
an email to Mr. Chaffetz. He read it in his opening statement. 
Do you stand by that statement?
    Mr. Nordstrom. I do. That was a response, again, as a 
follow-up to our meeting on the same day where we discussed a 
number of documents that you were interested in getting, 
specifically the list of incidents that we had discussed.
    Chairman Issa. In that statement, basically what you were 
saying is there wasn't sufficient resources provided, 
considering the escalating, the coming together of what could 
have and turned out to be a catastrophic attack. Would that be 
a fair paraphrasing of what you said?
    Mr. Nordstrom. That was one of the main reasons I continued 
to ask for those resources, yes.
    Chairman Issa. Now, we had an informal meeting with you, 
bipartisan meeting. In that, you relayed something I think is 
very important. I asked you about Ambassador Stevens, a very 
skilled career diplomat, and how he dealt with threats related 
to security. And you told me--I am paraphrasing--that, for 
example, when there was a perceived threat in his running, he 
ceased running.
    Then, when both you and Colonel Wood were able to come up 
with an acceptable way that he could continue, by varying where 
he went and so on, he ran again, but only ran again under your 
authority and your recommendation.
    Is that correct?
    Mr. Nordstrom. That is correct, Chairman.
    Chairman Issa. And I think I asked you, was he a compliant 
officer? Did he do what you thought when you recommended it, or 
did he chafe at any time over what you thought was best for his 
security?
    Mr. Nordstrom. At no time did I have any concerns raised to 
me by Ambassador Stevens.
    Colonel Wood and I, senior member of the Mobile Security 
Deployment team, routinely met with him and discussed general 
threats but also specific concerns that we might have about his 
schedule, his routine, and his meetings.
    As I noted, in that informal hearing, you know, one of the 
specific threats that we had received that was referenced this 
morning was a threat that was posted to Facebook. We came 
across that threat as a result of Senator McCain coming out to 
post to review the elections that were held in early July. 
There had been some postings about that.
    But my point of is that he was absolutely responsive, and 
he deferred to what our concerns were.
    Chairman Issa. Thank you.
    Ms. Lamb, yesterday you told us in testimony that you 
received from Mr. Nordstrom a recommendation but not a request 
for more security. And you admitted that, in fact, you had 
previously said that if he submitted a request, you would not 
support it. Is that correct?
    Ms. Lamb. Sir, after our meeting last night, I went back 
and--at the time----
    Chairman Issa. Well, first answer the question, then I will 
let you expand. Did you say that yesterday, that you would not 
support it if he gave you the request?
    Ms. Lamb. Under the current conditions, yes.
    Chairman Issa. Okay. And then last night you discovered 
what?
    Ms. Lamb. I went back and reviewed the July 9 cable from 
which I was referring, and that was not in that cable. I have 
been reviewing lots of documents----
    Chairman Issa. Well, we have a July 9th cable--it is one of 
them that I put in the record----
    Ms. Lamb. Yes.
    Chairman Issa. --that, in fact, has the word ``request.'' 
It doesn't meet your standard of, perhaps, what you call a 
formal request; you described that. But it does request more 
assets.
    If you looked at the July 9th, 2012, cable--and this is 
less than 60 days, or roughly 60 days beforehand--it says, 
``Summary and action request. Embassy Tripoli requests 
continued TDY security support for an additional 60 days.''
    Now, yesterday you told us, under penalty of perjury, 
essentially, that it wasn't a request, it was a recommendation. 
Does the word ``request'' mean ``request''? And are you 
prepared to say today that they requested these assets above 
and beyond what they had on September 11th, rather than that 
they simply recommended?
    Ms. Lamb. Sir, we discussed that there was no justification 
that normally comes with a request. That cable was a very 
detailed and complex cable outlining what----
    Chairman Issa. Right. Well, we have now read that cable, 
and you are right, it is detailed. And in several more places 
it expresses concerns.
    The September 11th cable from the now-deceased Ambassador 
expresses current concerns on that day. Repeatedly in the 
cables that were denied to us what we see is people telling you 
that al-Qaeda-type organizations are coming together.
    Now, the problem I have is that the State Department is 
basically saying, Mr. Nordstrom didn't do his job; he didn't 
make a formal request with justification. The Ambassador didn't 
do his job; he didn't make a good enough case. And that is what 
you are standing behind here today, in addition to saying, 
well, there were five people there, therefore.
    An embassy--a compound owned by us and serving like a 
consulate was, in fact, breached less than 60 days before, 
approximately 60 days before the murder of the Ambassador in 
that facility. Isn't that true?
    Ms. Lamb. Sir, we had the correct number of assets in 
Benghazi at the time of 9/11 for what had been agreed upon.
    Chairman Issa. Okay, my time has expired. To start off by 
saying you had the correct number, and our Ambassador and three 
other individuals are dead and people are in the hospital 
recovering because it only took moments to breach that 
facility, somehow doesn't seem to ring true to the American 
people.
    With that, I recognize the ranking member.
    Mr. Cummings, have you received the copies of the cables 
yet?
    Mr. Cummings. Yeah. Thank you.
    Chairman Issa. Okay.
    Mr. Cummings. Thank you.
    Mr. Nordstrom, you testified here today--your testimony 
here today paints a different picture than what has been 
portrayed in the press. In your testimony, you stated that you 
were, quote, ``impressed with the plans that would send our 
team into Libya, a massive show of well-organized resources,'' 
end of quote.
    You further explained that, and I quote, ``The Department 
of State Diplomatic Security Service, and Mission Libya 
officers conducted themselves professionally and with careful 
attention to managing people and budgets in a way that reflects 
the gravity of that task.''
    Did you say that?
    Mr. Nordstrom. Yes, I did, sir.
    Mr. Cummings. And you stated that you felt that the vast 
majority of your resource requests were, and I quote, 
``considered seriously and fastidiously by DS and the 
Department,'' end of quote. Did you say that?
    Mr. Nordstrom. Absolutely.
    Mr. Cummings. Did you mean that?
    Mr. Nordstrom. Absolutely.
    Mr. Cummings. In fact, you list out a litany of security 
improvements that you were able to make in both Benghazi and 
Tripoli.
    I think all of that is helpful to put into context the 
concerns that you have raised about staffing numbers.
    In your interview on October 1st, 2012, you told the 
committee that you thought that there should be five diplomatic 
security special agents stationed in Benghazi and that you sent 
two cables, one in March and one in July, making that request. 
Is that right?
    Mr. Nordstrom. That is correct. And if I could add to that 
point, it was not my decision to come up with the five agents 
in Benghazi. That number originated from a December 2011 cable 
detailing the future of operations in Benghazi.
    Mr. Cummings. All right.
    Mr. Nordstrom. That cable was drafted in the Department. I 
had at no time an opportunity to add or comment on that. 
However, the principal officer in Benghazi had an opportunity 
to comment on that. It was that number, five, which DS had 
committed to which we continued to ask them to meet throughout 
my time there.
    Mr. Cummings. Now, we have reviewed that July cable, and it 
states further, ``Post anticipates''--and I quote, ``Post 
anticipates supporting operations in Benghazi with at least one 
permanently assigned RSO from Tripoli; however, would request 
continued TDY support to fill a minimum of three security 
positions in Benghazi.''
    So that would be a total of four; is that right?
    Mr. Nordstrom. That is correct.
    Mr. Cummings. I understand that you left Libya before the 
attacks; is that right?
    Mr. Nordstrom. That is absolutely correct.
    Mr. Cummings. Ambassador Kennedy, let me turn to you. We 
have now been told there were, in fact, five--five--special 
agents in Benghazi the night of the attack, contrary to press 
reports.
    Can you verify whether, in fact, there were five special 
agents in Benghazi on the night of the attack? Were there also 
any additional armed guards at the compound on that night?
    Could you answer those two questions, please?
    Mr. Kennedy. Yes, sir. There were five diplomatic security 
special agents on the compound the evening of September 11th. 
And there were three additional armed security personnel 
provided by the Government of Libya.
    Mr. Cummings. Now, Agent Lamb, how do you respond to 
concerns that you failed to respond to requests for additional 
special agents in Benghazi? You know, that is a serious charge 
there.
    Ms. Lamb. Yes, sir. And we have evaluated that; I have 
evaluated it both with Eric Nordstrom and with a senior RSO 
that spent TDY time there, as well. I asked them to do a 
serious assessment of the numbers that were needed there.
    When Mr. Nordstrom and I discussed the duties of the agents 
out in Benghazi, they were using one agent to drive the 
vehicle, and they were using another agent to watch classified 
communications equipment 24/7. So these are not normally duties 
that are assigned to DS agents.
    So I just--I asked Eric to review that. And when Renee 
Crowningshield, another RSO, went to Benghazi, was also asked 
to review the numbers.
    And Eric worked closely with post management, asked them to 
hire a driver, and we hired a driver, trained a driver. And 
then the driver took the place of what the DS agent was doing. 
And then they came up, through technical security means, a way 
around the need to have the 24/7 coverage.
    Mr. Cummings. One last question: When the Ambassador 
traveled to Benghazi before the attack, could the security team 
in Tripoli have sent additional agents with him if they thought 
it was necessary?
    Ms. Lamb. Absolutely.
    Mr. Cummings. Very well.
    Chairman Issa. Would the gentleman yield?
    Mr. Cummings. Yes.
    Chairman Issa. Were any of those five DS agents that were 
there from Tripoli that had come down with the Ambassador?
    Ms. Lamb. Two had traveled with the Ambassador.
    Chairman Issa. Okay. So, for the record, there were three 
there and two happened to be there because the Ambassador was 
there. That is not the same as five being in Benghazi 
ordinarily.
    Ms. Lamb. No, sir.
    Chairman Issa. So if in the ordinary course there had been 
five, there still would have been two more coming down with the 
Ambassador, for a total of seven.
    Ms. Lamb. But post had agreed that three was a sufficient 
number to have on the ground.
    Mr. Cummings. So, just one question.
    Chairman Issa. Of course.
    Mr. Cummings. So, Mr. Nordstrom, the cable we talked about 
asked for four agents, not five; is that right?
    Mr. Nordstrom. If you could just clarify which cable? As I 
said, I sent a number of requests back by cable.
    Mr. Cummings. The July cable.
    Mr. Nordstrom. July 9th?
    Mr. Cummings. Yes. It asked for four and not five.
    Mr. Nordstrom. It asked for a minimum of three. And our 
plan was--at the time, we had three full-time permanently 
assigned agents in Libya: myself and two assistants.
    Mr. Cummings. So, even so, there were five on the night of 
the attack; is that right?
    Mr. Nordstrom. That is my understanding, although I was not 
there.
    Mr. Cummings. All right, thank you.
    Chairman Issa. I thank the gentleman.
    We now recognize the former chairman of the full committee 
for his questions, Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Kennedy, right after the September 11th attack, you 
were up here on Capitol Hill giving a briefing to aides, and 
you indicated--in fact, you said that this appeared to be a 
terrorist attack. Do you stand by that?
    Mr. Kennedy. What I said, Mr. Chairman, is that I was--
former chairman, Mr. Burton, sir----
    Chairman Issa. Once a chairman, always a chairman.
    Mr. Burton. Yeah, right.
    Mr. Kennedy. The question I recall being asked was, was 
this a premeditated attack. And I responded----
    Mr. Burton. It says----
    Mr. Kennedy. I responded to that that I am not prepared to 
render a formal opinion on whether or not it was premeditated, 
but I thought it involved a degree of complexity that was 
significant.
    Mr. Burton. Well, according to people who were there, you 
called it a terrorist attack.
    Mr. Kennedy. Oh. That was--in a separate statement, yes, 
sir, I said----
    Mr. Burton. Okay. That is all I wanted to know.
    Mr. Kennedy. Yes, sir.
    Mr. Burton. That is all I wanted to know.
    Mr. Kennedy. Absolutely.
    Mr. Burton. Okay. Because today, as I listen to people--and 
you, Ms. Lamb, have said--you have described these attackers in 
a number of ways, but you don't mention terrorists at all. Why 
is that?
    I mean, the compound had been attacked once before and 
breached. And these people had all these weapons--projectiles, 
grenades, all kinds of weapons. Why would you call this 
anything but a terrorist attack? And why do you call them 
attackers?
    Ms. Lamb. Sir, I have just presented the facts as they have 
come across. I am not making any judgments on my own, and I am 
leaving that----
    Mr. Burton. Okay, well, let me ask you a couple of other 
questions. There were 16 troops that were there at that 
compound, and they requested them to be kept there. And they 
sent a suggestion to you that they be kept there, and then you 
responded, saying that if that was presented to you, you would 
not accept that. Was that your sole decision?
    Ms. Lamb. Sir, they were not in Benghazi. They were in 
Tripoli. I just want to make sure that we are----
    Mr. Burton. I understand. Go ahead.
    Ms. Lamb. Okay. And when the cable came in where RSO 
Nordstrom laid out all of his staffing requirements and needs, 
I asked our desk officer to go back and sit down with him, or 
through emails and telephone conversations, to work out all the 
details and line up exactly how many security personnel, armed 
security personnel, did he need.
    Mr. Burton. Okay. Well----
    Ms. Lamb. But----
    Mr. Burton. You did not agree with that assessment that 
they needed those there.
    Ms. Lamb. No, sir. We had been training----
    Mr. Burton. No, no. I just want to know----
    Ms. Lamb. --people, local Libyans----
    Mr. Burton. --did you or did you not say that if that was 
presented to you, you would not accept it?
    Ms. Lamb. He was post----
    Mr. Burton. Did you or did you not say----
    Ms. Lamb. Yes, sir. I said that, personally, I would not 
support it.
    Mr. Burton. Okay. Now, why----
    Ms. Lamb. He could request it.
    Mr. Burton. --is that? Why is that?
    Ms. Lamb. Because----
    Mr. Burton. You knew about all these other attacks that had 
taken place. There had been 12, 14.
    Ms. Lamb. We had been training local Libyans and arming 
them----
    Mr. Burton. Well, now----
    Ms. Lamb. --for almost a year.
    Mr. Burton. Okay. Well, let me just interrupt and say that 
the local Libyan militia that was there, many of them 
supposedly were told by friends and relatives that there was 
going to be an imminent attack on that compound, and so many of 
them were left.
    Ms. Lamb. Yes.
    Mr. Burton. They didn't want to be involved in the attack.
    Ms. Lamb. Sir, with----
    Mr. Burton. Did--well, wait, wait, wait, wait.
    Ms. Lamb. Okay.
    Mr. Burton. Yeah.
    Ms. Lamb. Sorry.
    Mr. Burton. So I don't understand why you would say out of 
hand that you don't think those 16 troops should be there.
    Ms. Lamb. Sir, with due respect, they were in Tripoli; they 
were not in Benghazi. And it would not have made any difference 
in Benghazi.
    Mr. Burton. Okay.
    Mr. Nordstrom, do you care to comment on this?
    Mr. Nordstrom. As DAS Lamb indicated, beginning in about 
the January-February time frame, I had a number of 
conversations with DAS Lamb, with the regional director for 
Near Eastern Affairs, and also the desk officer for Libya 
itself. And a lot of those discussions were specific to 
determining what exactly our personnel needs were, looking at 
metrics, looking at what the duties would be that these 
personnel would be doing, be it DOD-sourced or Department of 
State-sourced.
    The number that we continued to come up with--and it is 
generally the same number that was requested in March, in my 
first request--was approximately 12 armed security, with an 
additional 6 persons that would be focused on training that 
local guard unit.
    Chairman Issa. Would the gentleman yield?
    Mr. Burton. I would be happy to yield.
    Chairman Issa. Isn't it true--we had this in testimony by 
the other RSO yesterday from Benghazi--that they would have as 
much as 30 percent turnover per month in these people they were 
training; that, in fact, you were not getting, if you will, 
good career people to come in, but, in fact, had very high 
turnover both in the unarmed and, to a lesser extent, in the 
armed portion of the training.
    Mr. Nordstrom. We had--just in terms of a point of 
clarification, we did have--the guard force was somewhat 
confusing. In Tripoli, the guards that we employed were 
directly hired by the Embassy. They were----
    Chairman Issa. I am only speaking of Benghazi.
    Mr. Nordstrom. Okay. Those were subcontracted. The decision 
to go with a contractor, Blue Mountain, was largely based on 
our concern of how long we would be in Benghazi. We were 
concerned that if we retained or brought on board full-time 
employees, we would have to then find a position for them if 
that post ever went away.
    So, yes, it is my understanding that there was a very high 
turnover with those people.
    In terms of the armed security that were there, the 17 
February, it was a core group that stayed there largely for the 
duration.
    Chairman Issa. The gentleman's time has expired, but, 
Colonel Wood, if you want to finish up on anything that is 
responsive, that would be fine.
    Colonel Wood. Yes. The 16 members of the SST did go to 
Benghazi on two separate occasions to support movement of the 
principal officer in that location, to bolster the security 
that was there. She made trips to Tobruk and Derna, and they 
were needed there for the extra--just the extra movement that 
she had and to remain--to guard the compound and to provide a 
quick reaction force, if necessary.
    We did that on, like I said, two separate occasions to 
provide that extra support. The SST on loan to the security 
force goes above and beyond normal, I guess, law enforcement-
oriented security. These individuals were familiar with and 
carried larger-caliber, better weapons, and the tactics they 
would employ would be to counter a military-style attack.
    Chairman Issa. Thank you.
    Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman.
    Ambassador Kennedy, I want to make sure I clarify one of 
the most controversial parts of this matter, and that is how 
the public first learned of the first reason given for the 
disturbances in Benghazi.
    Now, I understand that the State Department did not take 
any position, including the position taken by Ambassador Rice. 
So I think it is important to trace how the Ambassador came to 
the conclusions that she reported on television.
    She said that her information was that the Benghazi matters 
were similar to the protests that had arisen in Cairo. And she 
referred to extremist elements, opportunistic elements taking 
advantage, essentially, of that protest.
    Now, the Office of the Director of National Intelligence 
issued a statement that indicated that it had been the source 
of the Ambassador's statement. And I would like to read what 
the National Intelligence Director said.
    ``In the immediate aftermath, there was information that 
led us to assess that the attack began spontaneously, following 
protests earlier that day at our Embassy in Cairo. We provided 
that initial assessment to executive branch officials and 
Members of Congress, who used that information to discuss the 
attack publicly and to provide updates as they became 
available. Throughout our investigation, we continued to 
emphasize that information gathered was preliminary and 
evolving.''
    I note, by the way, that, Mr. Nordstrom, you say in your 
testimony--I am looking at page 2--that the ferocity and 
intensity of the attack was nothing that we had seen in Libya 
or that I had seen in my time--my entire time in diplomatic 
service, indicating that this was something of a surprise 
attack and, I might say, suggesting that perhaps we should be 
about rethinking how to protect our outposts, since it is clear 
we are not going to do it with lots of funds.
    But what I read as the statement, Ambassador Kennedy, could 
I ask you, from the National Intelligence Director, could I ask 
you if you have any reason to doubt that Ambassador Rice relied 
on that information from the National Intelligence Director?
    Mr. Kennedy. No, Ms. Norton. When I came up to give a 
briefing earlier that week, followed I think a day or 2 later 
by Ambassador Rice, both of us were relying on the same 
information. As I said in my oral statement, that if I or any 
other senior administration official, career or noncareer, 
would have been on that television show, other than Susan Rice, 
we would have said the same thing because we were drawing on 
the intelligence information that was then available to us.
    This has been, as you all know, very much an evolving 
situation. What we knew that first week and that first weekend 
has evolved over time, so we know much more now than we knew 
then.
    Ms. Norton. Indeed, the National Director issued a 
statement on the 28th, and he said, ``As we learned more about 
the attack, we revised our initial assessment to reflect new 
information indicating that it was a deliberate and organized 
terrorist attack carried out by extremists.'' So we see the 
evolving nature of it.
    Look, I have to ask you about the diplomats who were 
stationed in Cairo who were accused by Governor Mitt Romney of 
sympathizing with the attackers. I would like to know how these 
diplomats, these personnel in Cairo reacted to that criticism.
    Mr. Kennedy. I am afraid, Ms. Norton, I don't know. I have 
not had any conversations with the public affairs section in 
the Embassy in Cairo.
    But I can assure you, from just my general knowledge of for 
39 years in the foreign service, that there is not a foreign 
service officer or foreign service professional in our service 
who at all sympathizes or agrees with terrorists.
    Chairman Issa. Thank you.
    We now go to the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you.
    Chairman Issa. Could you yield me 10 seconds for a quick 
question?
    Mr. Jordan. Sure.
    Chairman Issa. Let's understand. What you are saying here 
today is that one piece of intel, one piece of intel got you 
guys, yourself and Ambassador Rice, to make a wrong statement 5 
or 6 days later and still be making it? Because Sunday is a 
long time after Tuesday.
    So you are saying that you got it wrong and it stayed 
wrong, you didn't know any better, between the 11th and the 
16th; is that right?
    Mr. Kennedy. The information that was available----
    Chairman Issa. No, no, I just----
    Mr. Kennedy. The information that was available from the 
intelligence community to both myself----
    Chairman Issa. Ambassador----
    Mr. Kennedy. --when I----
    Chairman Issa. Ambassador--Ambassador, you are a great 
witness historically. I asked you, did you have any contrary 
knowledge over those 5 days? That is all I want.
    Mr. Kennedy. No, sir.
    Chairman Issa. Okay. You didn't know any better for the 
next 5 days is your testimony.
    Thank you, Mr. Jordan.
    Mr. Chaffetz. Mr. Chairman? May I ask unanimous consent 
that we give equal time to Mr. Cummings to respond and then 
give Mr. Jordan his full 5 minutes?
    Mr. Lynch. Mr. Chairman, on that request----
    Chairman Issa. To be honest--Mr. Lynch, are you requesting 
time?
    Mr. Lynch. On a point of order. On a point of order.
    Mr. Cummings. I was just----
    Chairman Issa. I ask unanimous consent that the ranking 
member have 15 seconds.
    Without objection, so ordered.
    Mr. Lynch. On a point of order. Objection. Mr. Chairman, 
with all due respect, you just went over----
    Chairman Issa. You don't have to apologize to me.
    Mr. Lynch. With all due respect, you just allowed Mr. 
Burton to go over by 2 minutes, and you are giving Mr. Cummings 
15 seconds. You know what I mean? There is a little bit----
    Mr. Chaffetz. Mr. Chairman?
    Mr. Lynch. I am sure you are going to balance out the time.
    Chairman Issa. No, I understand. And we have gone over, 
both on witnesses and that. And I am going to pull it back into 
5 minutes----
    Mr. Lynch. There you go.
    Chairman Issa. --very solidly.
    Mr. Lynch. Okay. But just be fair to the ranking member.
    Chairman Issa. Before we get down to your part of the dais, 
I will get there, I promise.
    Mr. Lynch. Thank you, sir.
    Mr. Chaffetz. Mr. Chairman, can I----
    Chairman Issa. Thank you.
    Without objection, the ranking member is given equal time 
to ask a question.
    Please.
    Mr. Cummings. Yeah, I just want to go back to you, 
Ambassador. I think Ms. Norton and the chairman asked a very 
critical question.
    The chairman talked about the 5 days. Can you give us--can 
you try to explain that to us, that, you know, during that 
period of 5 days or whatever it was, not being able to--not 
having the information, contrary to what Ms. Rice may have 
said? And I understand that was based on intelligence, but can 
you explain how that could happen to the public?
    In other words, were you all still gathering information? 
Was the State Department in the process of trying to get it 
right? I mean, what was going on there? Do you know?
    Mr. Kennedy. Mr. Cummings, we were gathering information. 
We were closely coordinating with our colleagues in the 
intelligence community.
    We wanted to know what was happening more than anyone else 
because we also had dozens of other embassies that we were 
concerned about, including attacks on three or four other 
embassies. So we were looking for every piece of information 
that we could get from no matter what rational and reasonable 
source to feed into our consideration of what steps we should 
take to protect U.S. Diplomatic facilities abroad.
    Mr. Cummings. Just one last question, Mr. Chairman.
    Is it unusual for you all to rely on the intelligence 
community for that kind of information?
    Mr. Kennedy. We have a great partnership, Mr. Cummings, 
with the intelligence community, and we heavily depend upon the 
information they provide us, just as they heavily depend upon 
the information we provide them.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. I thank you.
    And now the gentleman from Ohio has exactly 5 minutes.
    Mr. Jordan. Thank you. I thank the chairman.
    Lieutenant Colonel Wood, how many months were you in Libya?
    Colonel Wood. I was in Libya approximately 6 months.
    Mr. Jordan. Mr. Nordstrom, how many months were you in 
Libya?
    Mr. Nordstrom. Approximately 10.
    Mr. Jordan. Ms. Lamb, how many times have you visited Libya 
in the--how many times have you visited Libya, period?
    Ms. Lamb. I have not.
    Mr. Jordan. None over the last 14, 15 months?
    Ms. Lamb. No.
    Mr. Jordan. None since the 200-plus incidents, security 
incidents, in Libya you have visited?
    Ms. Lamb. No, sir.
    Mr. Jordan. Mr. Kennedy, how many times have you been to 
Libya?
    Mr. Kennedy. None.
    Mr. Jordan. Okay.
    Let me go to this process. We had numbers earlier from Mr. 
Nordstrom. You talked about three/five in Libya. Then we talked 
about you wanted 12, plus a backup of 6. So I want to know 
about this process. And, actually, I will go to Mr. Kennedy 
first.
    In your testimony, Mr. Kennedy, you say, ``The Department 
of State regularly assesses risk in allocation of resources for 
security, a process which involves considered judgments of 
experienced professionals on the ground and in Washington using 
the best information available.''
    So that process, I want to know how the decision was made. 
Are you involved in that process, Ambassador Kennedy?
    Mr. Kennedy. In most normal occasions I am not involved. 
There is an ongoing dialogue----
    Mr. Jordan. Where does that process go to? Are people in 
the White House directly involved in that process? Is Secretary 
Clinton directly involved in that process?
    Mr. Kennedy. The process--if there are disagreements 
between the post in the field and the diplomatic security----
    Mr. Jordan. Would you classify what took place here as a 
disagreement, based on what Mr. Nordstrom and Mr. Wood have 
testified to and what Ms. Lamb has said?
    Mr. Kennedy. No, sir. I would----
    Mr. Jordan. This didn't reach the disagreement level?
    Mr. Kennedy. I would describe it as a dialogue between the 
post and diplomatic security----
    Mr. Jordan. So this didn't reach a level where you needed 
to weigh in or someone higher needed to weigh in?
    Mr. Kennedy. No, sir, it did not.
    Mr. Jordan. Anyone at the National Security Council, did 
anyone weigh in there?
    Mr. Kennedy. No, sir, it did not.
    Mr. Jordan. Okay.
    Mr. Nordstrom, let me turn to you then. I want to know, in 
the email that Congressman Chaffetz referenced earlier, the 
interview you had with Congressman Chaffetz and Chairman Issa 
back on October 1st, you stated, quote, ``This is not an 
environment where posts should be directed to normalize 
operations and reduce security resources in accordance with 
artificial timelines.''
    And yet today in your testimony it was a little different 
tenor, as I think the ranking member brought out. And you 
mentioned at one point, the answer should not be to operate 
from a bunker. So I want to ask you these questions.
    First of all, since that interview with Chairman Issa and 
Chairman Chaffetz, staff has indicated they have tried to 
contact you six different times via telephone and you have not 
responded. Is there a reason you did not respond to those 
telephone calls?
    Mr. Nordstrom. That is correct----
    Mr. Jordan. No, it is correct you didn't respond. Is there 
a reason?
    Mr. Nordstrom. I had been advised by the Department of 
State that all inquiries----
    Mr. Jordan. And who specifically advised you to do that?
    Mr. Nordstrom. Our legislative affairs office.
    Mr. Jordan. And did they say where that came from? Did Ms. 
Lamb specifically advise you not to talk?
    Mr. Nordstrom. No, she did not.
    Mr. Jordan. Did Ambassador Kennedy tell you to do that?
    Mr. Nordstrom. No, he did not.
    Mr. Jordan. Did Secretary of State Clinton tell you to do 
that?
    Mr. Nordstrom. No, she did not.
    Mr. Jordan. So who was the person who told you not to talk 
with our staff after you gave us this interview where you gave 
us this information?
    Mr. Nordstrom. I was advised by the Assistant Secretary 
Boswell----
    Mr. Jordan. Okay.
    Mr. Nordstrom. --by his office, his staff that all requests 
for information and documents would need to go--would need to 
be vetted or routed through that office.
    Mr. Jordan. Did those same individuals help you prepare 
today's testimony?
    Mr. Nordstrom. In the sense of providing general guidelines 
on how----
    Mr. Jordan. Did they tell you they wanted to look it over 
before you came in front of this committee and gave it today?
    Mr. Nordstrom. Of course.
    Mr. Jordan. And did they write it for you?
    Mr. Nordstrom. No, they did not.
    Mr. Jordan. Okay.
    Ms. Lamb, I want to go back to--I want to go back to this 
decision-making process. So is it customary to not listen as--
well, I would characterize it as listen as intently as I think 
you should to the guys in the field and what they wanted to 
have happen when they requested the 12 plus the 6 backup?
    Ms. Lamb. Yes, sir, I listened intently to those 
conversations.
    Mr. Jordan. Okay.
    Mr. Wood, let me bring you into the conversation here. I 
want your comments on that, specifically the number you wanted 
to add in Libya, plus the additional six.
    Colonel Wood. We agreed to the numbers, between Eric and I, 
and put forth those numbers. We felt great frustration in the 
fact that those demands were ignored or in some cases just 
never met.
    Mr. Jordan. So the process I was earlier referencing when 
asking Ambassador Kennedy, tell me who you felt was involved in 
that process? Who were the individuals in Washington? You were 
the folks on the ground, at post. Who were the folks in 
Washington in that process?
    Mr. Wood. I heard Eric Nordstrom refer to Ms. Lamb, as far 
as the deciding authority on providing those additional 
resources.
    Mr. Jordan. Experienced professionals on the ground in 
Washington. Who were the other experienced professionals in 
Washington that helped make that decision?
    Colonel Wood. I wouldn't know the answer to that.
    Mr. Jordan. Mr. Nordstrom, who else?
    Because all we got right now, we know the Secretary of 
State wasn't, we know the White House wasn't, and we know the 
National Security--and we know Ambassador Kennedy wasn't. 
Somebody had to decide. Someone in Washington was telling you 
guys you couldn't get what you wanted. So was it just Ms. Lamb, 
or were there other people involved in this process?
    Mr. Nordstrom?
    Mr. Nordstrom. Again, I can't speculate in terms of who 
was. The person I dealt with was our regional director, Jim 
Bacigalupo, and then Ms. Lamb. The----
    Mr. Jordan. Okay----
    Mr. Nordstrom. The Ambassador and the DCM, if I could just 
add----
    Chairman Issa. Okay, you can finish----
    Mr. Nordstrom. --raised the same concerns. The DCM met with 
DAS Lamb also in February, raised the same concerns in person. 
And it is my understanding that Ambassador Cretz made 
additional phone calls. All of us at post were in sync that we 
wanted these resources.
    Mr. Jordan. Okay.
    Chairman Issa. Okay. Anyone that needs to answer that 
question, but the gentleman's time has expired. Ms. Lamb?
    On behalf of Ms. Lamb, Ambassador Kennedy.
    Mr. Kennedy. Because I want to make----
    Briefly, please.
    Mr. Kennedy. Absolutely, Mr. Chairman.
    I was asked--on a different question, I was asked whether I 
was going to request a third extension of the SST. I consulted 
with my colleagues, and because our colleagues had put 
together----
    Mr. Jordan. Wait, but that is not what you said earlier. 
You said you weren't involved, and now you are telling me you 
are. Which one is it?
    Mr. Kennedy. This is a--you asked a specific question----
    Chairman Issa. Okay. This question, I am afraid, will be 
for the next round for both of you.
    With that, we recognize the gentleman from Ohio also, Mr. 
Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Kennedy has testified today that U.S. interests and 
values are at stake in Libya and that the U.S. is better off 
because we went to Benghazi. Really? You would think that after 
10 years in Iraq and 11 years in Afghanistan, that our country, 
that the U.S. would have learned the consequences and the 
limits of interventionism. You would think that after trillions 
have been wasted on failed attempts at democracy-building 
abroad while our infrastructure crumbles at home, Congress and 
the administration would reexamine priorities.
    Today we are engaging in a discussion about the security 
failures in Benghazi. There was a security failure. Four 
Americans, including our Ambassador, Ambassador Christopher 
Stevens, were killed. Their deaths are a national tragedy, and 
my sympathy is with the families of those who were killed. 
There has to be accountability, and I haven't heard that yet. 
We have an obligation to protect those who protect us. That is 
why this Congress needs to ask questions.
    The security situation did not happen overnight because of 
a decision made by someone at the State Department. We could 
talk about hundreds of millions of dollars in cuts for funding 
for embassy security over the last 2 years as a result of a 
blind pursuit of fiscal austerity. We could talk about whether 
it is prudent to rely so heavily on security contractors rather 
than our own military or State Department personnel. We could 
do a he-said/she-said about whether the State Department should 
have beefed up security at the Embassy in Benghazi. But we owe 
it to the diplomatic corps who serves our Nation to start at 
the beginning, and that is what I shall do.
    The security threats in Libya, including the unchecked 
extremist groups who are armed to the teeth, exist because our 
Nation spurred on a civil war, destroying the security and 
stability of Libya. And, you know, no one defends Qadhafi. 
Libya was not in a meltdown before the war. In 2003, Qadhafi 
reconciled with the community of nations by giving up his 
nation's pursuit of nuclear weapons. At the time, President 
Bush said Qadhafi's actions made our country and our world 
safer.
    Now, during the Arab Spring, uprisings across the Middle 
East occurred, and Qadhafi made ludicrous threats against 
Benghazi. Based on those verbal threats, we intervened--absent 
constitutional authority, I might add. We bombed Libya, we 
destroyed their army, we obliterated their police stations. 
Lacking any civil authority, armed brigades controlled 
security. Al Qaeda expanded its presence. Weapons are 
everywhere. Thousands of shoulder-to-air missiles are on the 
loose.
    Our military intervention led to greater instability in 
Libya. Many of us, Democrats and Republicans alike, made that 
argument to try to stop the war. It is not surprising, given 
the inflated threat and the grandiose expectations inherent in 
our nation-building in Libya, that the State Department was not 
able to adequately protect our diplomats from this predictable 
threat. It is not surprising, and it is also not acceptable.
    It is easy to blame someone else, like a civil servant at 
the State Department. We all know the game. It is harder to 
acknowledge that decades of American foreign policy have 
directly contributed to regional instability and the rise of 
armed militias around the world.
    It is even harder to acknowledge Congress's role in the 
failure to stop the war in Libya, the war in Iraq, the war in 
Afghanistan, the war in Pakistan, the war in Yemen, the war in 
Somalia, and who knows where else. It is harder to recognize 
Congress's role in the failure to stop the drone attacks that 
are still killing innocent civilians and strengthening radical 
elements abroad.
    We want to stop the attacks on our embassies? Let's stop 
trying to overthrow governments. This should not be a partisan 
issue. Let's avoid the hype. Let's look at the real situation 
here. Interventions do not make us safer. They do not protect 
our Nation. They are, themselves, a threat to America.
    Now, Mr. Kennedy, I would like to ask you, is al Qaeda more 
or less established in Libya since our involvement?
    Mr. Kennedy. Mr. Kucinich, I will have to take that 
question for the record. I am not an intelligence expert.
    Mr. Kucinich. Oh, you don't have the intelligence, you are 
saying. Well, I am going to go on to the next question.
    The next question: Are Americans safer, Mr. Kennedy----
    Chairman Issa. Mr. Kucinich?
    Mr. Kucinich. Excuse me?
    Chairman Issa. I think the other two may have an opinion, 
also, if you wanted to ask them about that.
    Mr. Kucinich. Well, I wanted to ask Ambassador Kennedy.
    Next question, Ambassador Kennedy: How many shoulder-to-air 
missiles are capable of shooting--that are capable of shooting 
down civilian passenger airlines are still missing in Libya? 
And this happened since our intervention. Can you answer that 
question?
    Mr. Kennedy. No, sir. I will be glad to provide it for the 
record.
    Mr. Kucinich. You are saying that you don't know.
    Mr. Kennedy. I do not know, sir. It is not within my normal 
purview of operations at the State Department.
    Mr. Kucinich. Does anyone else here know how many shoulder-
to-air missiles that can shoot down civilian airliners are 
still loose in Libya? Does anyone know?
    Mr. Nordstrom. The figures that we were provided were 
fluid, but the rough approximation was between 10,000 and 
20,000.
    Chairman Issa. The gentleman's time has expired. Did you 
want them to answer anything about al Qaeda growth?
    Mr. Kucinich. If anyone there knows the answer.
    Chairman Issa. If anyone has an answer on that one, they 
can answer, and then we will move on.
    Mr. Kucinich. Yeah. Is al Qaeda more or less established in 
Libya since our involvement?
    Colonel Wood. Yes, sir, and their presence grows every day. 
They are certainly more established than we are.
    Chairman Issa. Thank you.
    With that, we recognize the chairman of the subcommittee 
and a doggedly determined individual to get to the bottom of 
this, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Mr. Nordstrom, as we spoke before and I think is clear in 
the record, you were asking for more personnel and that was 
either rejected or denied or just simply ignored, correct?
    Mr. Nordstrom. Actually, to clarify, we were asking just to 
keep what we had.
    Mr. Chaffetz. And when you weren't able to just even keep 
what you had, what happened to your pay and the other security 
officers' on the ground?
    Mr. Nordstrom. I am sorry, I----
    Mr. Chaffetz. As I recall, what you told me is, when that 
was denied, you were given a pay increase. They increased your 
pay.
    Mr. Nordstrom. Ah, okay. What I think you are referring to 
is the increase in danger pay for post. As part of normal 
procedures, we are asked for input at post. I, as part of that 
process, would provide information on security----
    Mr. Chaffetz. So, to clarify, you were asking for more 
assets, more resources, more personnel; that was denied. But 
the State Department went back and reclassified it as more 
dangerous. The danger pay, therefore, increased. They didn't 
tell you that we didn't have resources, hey, that Congress just 
cut your budget. They gave you an increase because the danger 
was rising, correct?
    Mr. Nordstrom. That is correct. We received a danger pay 
increase.
    Mr. Chaffetz. Thank you.
    Did the buildings in Benghazi meet the so-called Inman 
standards? After the bombings in Beirut, we went back as a 
government and formalized some minimum standards. Did they or 
did they not meet those minimum standards?
    Mr. Nordstrom. Neither the buildings in Benghazi nor the 
buildings in Tripoli met those standards, nor was there a plan 
for the next phase of construction, what was called the interim 
embassy, would they meet the standards either. That interim 
embassy was scheduled to be on the ground for approximately 10 
years. That was a major cause of concern, and that was the main 
physical security issue that we continued to raise.
    Mr. Chaffetz. Thank you.
    And, Mr. Chairman, I would point to an August 20 cable, 
that U.N. Officials believe the Supreme Security Council is, 
quote, ``fading away,'' unquote, unwilling to take on, quote, 
``anyone with powerful patrons or from powerful tribes,'' end 
quote. This cable back to Washington, D.C., also said that 
incidents continue in this ``security vacuum,'' as they 
referred to it, in Benghazi.
    Mr. Chairman, I would also point to September 4th. In their 
memo, they highlighted the September 1st, quote, ``maximum 
alert''--a maximum alert, September 1st. This was the 
information that was coming.
    And what is infuriating is that we have hundreds of 
terrorist types of activities. Our consulate is bombed twice. 
The British Ambassador has an assassination attempt. And you 
are over here arguing about whether the number was five or two, 
or five or three. And the security experts who actually have 
even been to Libya didn't get the resources that they asked 
for.
    Colonel Wood, did you participate in any way, shape, or 
form in requests for additional personnel in Libya? And what 
was the consequence of those requests?
    Colonel Wood. Yes, sir, I did. I assisted Eric Nordstrom in 
preparation of the requests for support. Inasmuch as they dealt 
with SST support, I reviewed some of those documents and 
assisted in the preparation of those.
    I would like to add also that there was frustration from 
the beginning. The initial, or perhaps it was the second 
request for extension that occurred on April 5th, Ambassador 
Cretz encountered some difficulty in understanding what was 
going on. He was getting conflicting signals from DOD and DOS. 
I got him together with General Ham. They worked out a complete 
understanding, and General Ham made it very clear to Ambassador 
Cretz that he could have the SST as long as he needed them. 
This was a great interagency cooperation, and that was made 
very clear to him.
    It was also made clear to Joan Polaschik, who took over as 
charge d'affaires in between Ambassador Cretz and Ambassador 
Stevens. He came personally and told her that.
    He also had a VTC with Ambassador Stevens and reiterated 
that same point, that the SST was his as long he needed them. 
All he had to do was request them, and General Ham was 
perfectly willing to provide that support.
    Mr. Chaffetz. Mr. Nordstrom, did you ever specifically ask 
Charlene Lamb--rather, did she ever specifically direct you not 
to ask for additional DOD SST extension?
    Mr. Nordstrom. I recall two specific phone calls, one in 
the February timeframe, one in the July timeframe. I had the 
opportunity to refresh my recollection on one of those phone 
calls by talking to the two agents who happened to be present 
in the living room of the Ambassador's residence, which is 
where we used as our office.
    In those conversations, I recall that I was specifically 
told you cannot request an SST extension. How I interpreted 
that was that there was going to be too much political cost, or 
for some reason, there was hesitancy on that. In the first 
case, in February, the Ambassador and DCM and I all felt 
strongly about the need for that. And we went ahead and 
requested it anyway.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. Thank you.
    We now go to the gentleman from Massachusetts--and we 
appreciate his patience--for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I also want to thank 
the witnesses, all of you, for your willingness to come and 
help the committee with its work. Obviously, I want to 
acknowledge the tremendous sacrifice of Ambassador Stevens and 
former Navy SEALs Tyrone Woods and Glen Doherty, who was a 
favorite son of Massachusetts, my home State, and as well as 
Communications Specialist Sean Smith.
    I want to make two points, however. One is, I think the 
best way to honor the memory of those American heroes is to 
address the general and global issue of embassy security so 
that when we do assign other brave Americans to fill these 
posts, that they do have adequate security.
    Now many members of this committee, both sides of the aisle 
here, have traveled to the Middle East dozens and dozens of 
times. We have visited some--and the chairman has mentioned 
them in his opening remarks--mentioned Damascus; Syria; 
mentioned Beirut, Lebanon. I just came back from Sana'a, Yemen, 
where at least in Yemen, they are undergoing some structural 
changes there in response to threats there. But we have some 
embassies that predate even the attacks on Nairobi, Kenya, or 
Dar es Salaam, Tanzania, so that we have got old-world 
embassies that are located right on the street, right on the 
souk in the Middle East that are terribly exposed to car bombs 
and to attacks.
    So I think the best way really to approach this thing is, 
number one, is take a holistic approach to this and figure out 
how we can prevent this type of thing from happening again.
    And I think my second point, really, the easiest way to 
strengthen embassy security is to get on the same page. I have 
to tell it like it is. And in recent budgets, my Republican 
colleagues have supported cuts to funding for embassy security. 
Well, the first thing you have got to do to strengthen embassy 
security is to try to meet Secretary Clinton's request for 
funding for embassy security. That will help a lot.
    Ambassador Kennedy and Ms. Lamb, what would a few hundred 
million dollars, like was cut from the President's request and 
Secretary Clinton's request for embassy security, what would 
that mean to you in terms of providing that level of protection 
that every son and daughter of America deserves when they 
accept that post to go into a dangerous area, especially some 
of the spots that we have got right now in the Middle East, 
what would that few hundred million dollars do to your ability 
to provide an adequate level of protection on their behalf?
    Mr. Kennedy. Mr. Lynch, if we received the President's 
budget request for fiscal year 2013, which is still pending 
before the Congress, we would be able to construct new 
facilities and we would be able to upgrade additional 
facilities to get to the higher standards we seek.
    Mr. Lynch. Well, look, I want to go back to the Chairman's 
point, the situations in Damascus and in Beirut. Obviously, 
Damascus we have withdrawn our embassy personnel. But we have 
still got the same problem there when things get straightened 
out. We are still on the main street. We are negotiating--we 
were negotiating. I had personal conversations with President 
Assad a couple of years ago about getting a new facility there.
    Do we have a task force that is looking at providing the 
setback we need to provide that level of protection and to 
relocate some of these embassies?
    Mr. Kennedy. We do, sir. We have a strategic plan. We know 
which embassies are more in danger than others. We are working 
through that. But there are limitations on funds. I can only 
construct so many new facilities each year, depending on the 
funds I have available to me.
    Mr. Lynch. I just want to go back to one point, Ms. Lamb. 
In your written testimony at page 2, first paragraph, you 
mention that in addition to the security team you had there, 
there was, I think you described it as a rapid response force 
that was located in the annex. How many folks are in that 
rapid, do you know? How many are in that rapid response task 
force or team that would help? Or, Mr. Nordstrom, I don't know 
if you know the number of that.
    Ms. Lamb. Sir, there were seven. And their job was also to 
hook up with----
    Mr. Chaffetz. Point of order. Point of order.
    Chairman Issa. The gentleman will state his point of order.
    Mr. Chaffetz. Again, I would renew my deep concern that we 
are getting into an area that is classified--and should be 
classified. The dealing with the map is one issue. I believe 
that the markings on that map were terribly inappropriate. But 
the activities there could cost lives.
    Mr. Lynch. On the point of order--may I speak on the point 
of order?
    Chairman Issa. You may speak on the point of order, of 
course.
    Mr. Lynch. Okay.
    This whole hearing is responding to allegations that there 
were not enough people on the ground at the Benghazi facility, 
those accusations that you made publicly, so that now I am 
trying to get an answer of how many people were there, and all 
of a sudden that is off the record, that is classified 
information? You have got to be kidding me. You have got to be 
kidding me.
    Chairman Issa. I am prepared to rule.
    Unless you are prepared to get clearance to declassify any 
and all information about additional personnel, this hearing 
will be limited to the information already given, which is the 
amount of individuals who responded from that rapid force. This 
hearing is not specifically about September 11, but it is 
intended to clarify much more prospectively failures, 
accountability decisions. I don't think that any of us--and I 
don't want to overly state this--but I don't think any of us 
figure since four people are dead, something went wrong. Having 
said that, there has previously been testimony as to the 
individuals that have responded.
    I would certainly recommend the entire committee have a 
classified briefing as to any and all other assets that were 
not drawn upon but could have been drawn upon. And I would ask 
the gentleman to respect that. And I would yield the gentleman 
an additional 1 minute to finish his questioning.
    Mr. Lynch. Okay. Mr. Ambassador, can you clarify any answer 
around that question that may not violate----
    Mr. Kennedy. Certainly, sir. The U.S. mission, the American 
embassy annexes in Benghazi consisted of two separate compounds 
because we could not all fit on one compound. There were 
security personnel stationed on both compounds. There was an 
affected type of mutual assistance arrangement that had been 
worked out by the regional security officers, so if one 
compound came under attack, security personnel would flow from 
one to the other or vice versa. It is a common practice. And so 
we are very, very interested in making sure that we have the 
maximum utilization for common U.S. Government-State Department 
security personnel in any country, and we do that. And we are 
certainly mindful and respectful of the general security 
concerns.
    Mr. Lynch. Thank you. I yield back.
    Chairman Issa. I thank the gentleman.
    Only one point of clarification. Mr. Nordstrom, during your 
time were those people under any of your control or could you 
task them?
    Mr. Nordstrom. I am glad you asked that question. Again, in 
being completely cognizant, because I have some of the same 
concerns, all of the people there were under the Chief of 
Mission. But not necessarily all of the security people fell 
under my direct operational control.
    Chairman Issa. Thank you. I think that clarifies it. We now 
go to the gentleman from Oklahoma, Mr. Lankford, for 5 minutes.
    Mr. Lankford. Thank you, Mr. Chairman. I need to shift my 
questions a little bit from what I intended just based on some 
of the conversation that we have had so far.
    Ms. Lamb, can you clarify for me, where were you working 
September 11th? Were you in the Washington area or in the main 
facility there?
    Ms. Lamb. Yes, sir. I was in the DS Command Center on the 
evening of the event.
    Mr. Lankford. You note that in your testimony, that you are 
in the diplomatic security command center, and then you make 
this statement: I could follow what was happening almost in 
real-time.
    Ms. Lamb. That is correct.
    Mr. Lankford. So once they hit the button in Benghazi you 
are alerted. It said you could have. Did you follow what was 
happening in real-time at that point?
    Ms. Lamb. Sir, what was happening is they were making 
multiple phone calls and it was very important that they 
communicate with the annex in Tripoli because this is where 
additional resources were coming from. So they would hang up on 
us and then call back.
    Mr. Lankford. But you are tracking it back and forth, what 
is going on.
    Ms. Lamb. Yes.
    Mr. Lankford. Then, after a very long night for them, they 
are evacuated out into Tripoli. Where they in communication 
with you then once they got to Tripoli? This would have been 
the next morning at that point.
    Ms. Lamb. No. At that point Embassy Tripoli took over 
communicating.
    Mr. Lankford. So you had no other communication with them 
after they got to Tripoli. You weren't aware of that or----
    Ms. Lamb. No. They notified us when there was wheels down. 
They notified us when they got to the hospital. They notified 
us when they were wheels up in route to Germany.
    Mr. Lankford. Obviously, these are your folks. I cannot 
imagine the emotion of that for you. So you had no other 
connection to know what happened, the details of that, what 
occurred. These frantic phone calls and all these things that 
are happening back and forth, they get to Tripoli and you are 
not aware any more of what actually had just happened?
    Ms. Lamb. No, sir, we continued to follow them, but half 
the team had to be rushed to the hospital----
    Mr. Lankford. Right.
    Ms. Lamb. And treated. They had just been through a 
horrific ordeal.
    Mr. Lankford. Oh, it is horrible. Your detailed account of 
this is horrific.
    Ms. Lamb. So at this point, providing them the comfort to 
just come down from the adrenaline and the horror of what had 
happened, we respected that and we worked through our 
colleagues at the embassy in Tripoli.
    Mr. Lankford. Right. Here is my struggle with that. You are 
listening in on the command center. You are in communication as 
this is going on. They get to Tripoli. There is all kinds of 
conversations that are happening back and forth as people are 
checking on them. And yet State Department is testifying still 
today, 5 days later they didn't know what happened; that that 
was--a coordinated--maybe this was some spontaneous event that 
occurred, when there was constant communication happening.
    Did someone come to you and ask you from State: Was this a 
protest? Because I would assume you knew pretty quickly this 
was not some protest that went out of bounds because there was 
no protest even there that day. So it is not like there is a 
big group of people and 24 people jumped out and started 
shooting. There was no gathering at all that day. I assume you 
knew that immediately.
    Ms. Lamb. No, sir. It was not clear. It was a very large 
compound and each individual agent was looking at what was 
happening from a different perspective and a different angle.
    Mr. Lankford. Was it clear to you there wasn't a protest 
going on outside? It is not that large of a compound you can't 
see out the front gates and know if there is a protest.
    Ms. Lamb. No, sir. It happened so fast. When they rushed 
through the gate, it is was not clear.
    Mr. Lankford. I completely understand; 9:40 at night. The 
initial reports were this was some large protest that had 
happened over a video and it kind of birthed out of that where 
people are running out with RPGs and had attacked. And 
Ambassador Kennedy said that is the best we would know even 5 
days later. I find that hard to believe, based on your report 
that you are tracking what is occurring and that individuals, 
when they get to Tripoli the next morning are reporting back 
what happened, that someone didn't say: Here's what occurred. 
And the word ``protest'' never came out of it. And 5 days later 
no one knows?
    Ms. Lamb. Sir, they were all fighting for their lives on 
that compound.
    Mr. Lankford. I completely understand that. My question is: 
The testimony seems to be conflicting today. We are getting 
reports from State that--this wasn't them, this was the 
Intelligence Community that made this report, but I hear from 
you, you were aware of what happened and what went on and 
others around you, and folks at the embassy, I can't imagine 5, 
6, 7--7 days later the White House press secretary standing up 
and still giving the same report 7 days later, that no one has 
done this.
    Now there are lots of other issues I want to talk about, 
but I am kind of amazed at this whole dialogue today that it 
seems like no one knew and there is this best case scenario 
that is coming out. And I am struggling with just the basic 
facts on this. Now this is irrelevant to the overall of what we 
are going to do in the future and what happened in the past. 
But I can't seem to put all these pieces together when I am 
getting such conflicting stories of people that are listening 
to it firsthand what is happening on the ground.
    Ambassador Kennedy, do you want to respond to that?
    Mr. Kennedy. If I could, sir. There were multiple reports 
coming out. Multiple reports.
    Mr. Lankford. Were any of the reports saying there was a 
protest?
    Mr. Kennedy. There were reports.
    Mr. Lankford. There were reports coming out of Benghazi 
that there were protests that day.
    Mr. Kennedy. There were reports that we received saying 
that there were protests. And I will not go any farther than 
that. And then things evolved. Period. 
    If I could, one other thing.
    Chairman Issa. Before the gentleman goes on, you said you 
wouldn't go any further. I would only ask why you are not going 
any further. If you want to revise and extend other things, 
that is fine, but why won't you go further?
    Mr. Kennedy. Because I don't want to cross certain lines in 
open session.
    Chairman Issa. Okay. So you are testifying there were 
multiple reports, but in this setting, you cannot tell us the 
multiple reports and where they came from?
    Mr. Kennedy. In open session.
    Chairman Issa. I appreciate that. We will arrange for a 
classified.
    If the gentleman will conclude.
    Mr. Lankford. Just my one issue is there is ongoing 
conversation happening, there is ongoing conversations the next 
morning when they are in Tripoli. I find it very difficult 5, 
6, 7 days later this same story is coming out when there was 
constant communication with a group of people. It just seems 
like a very difficult story for me to be able to believe.
    Mr. Kennedy. If I could.
    Mr. Lankford. Of course.
    Mr. Kennedy. As I said in my opening statement, Mr. 
Chairman, Mr. Lankford, there were multiple reports. We are 
trying to reconcile the reports. Because we regard our 
responsibility to keep the Congress informed, we came up very, 
very early to talk when we still had multiple threads out 
there. And those--we were not about to precipitously try to 
reconcile those multiple threads.
    Chairman Issa. I appreciate that. And I do appreciate the 
fact that 2 days later you called it a terrorist attack; well, 
many days later others were using other terms.
    As I pass over to the minority for a moment, yesterday in a 
closed session, I asked you for the 50-minute tape that exists 
that would allow us to see the video feed that was available. 
You said it wasn't available; another part of government had 
it, even though you had a copy of it. Have you been able to 
make that available? I think on both sides of this side of the 
dais, we would like to see that 50 minutes of video that was 
turned over by the government fairly quickly.
    Mr. Kennedy. Mr. Chairman, I have made it clear to the 
other government agency that has this tape--I have communicated 
your request to them.
    Chairman Issa. With your recommendations that they do turn 
it over?
    Mr. Kennedy. Since this is involving investigative process 
on their part, I do not feel that I am in a position to make a 
recommendation about an investigative process.
    Chairman Issa. Thank you. And for the ranking member's 
edification, I apologize that I only barely learned about that 
hearing, or that briefing in order to get there for a few 
minutes, so that I want to confirm, the FBI is doing the 
investigation. They do not have custody. Another government 
agency does. I don't have any doubt that it is not the 
investigating agency, the FBI that has custody of that tape.
    Mr. Cummings. The same briefing that you are talking about, 
we were not--the Dems on the committee, we weren't invited. 
Didn't even know about it.
    Chairman Issa. Your committee did know about it.
    Mr. Cummings. But we weren't invited.
    Were you invited?
    Chairman Issa. I learned about it in a discussion with the 
Secretary of State. And so I went up there, only then 
discovering that they were surprised to see me. But I was glad 
I went there and I was glad to have the opportunity to confirm 
the existence of a 50-minute tape that has been floating around 
that is not needed by the FBI, but, in fact, is in the custody 
of another government agency.
    Mr. Cummings. Mr. Chairman, one more thing. I think you 
would agree that we don't want to do anything to interfere with 
an ongoing investigation. Do we?
    Chairman Issa. I would like this committee to have that 50-
minute tape before the press has it. And quite frankly, we 
should have had it before today to see it. It is not 
interfering with an investigation. In testimony, the last 2 
days that both of our committees had, we were told, for 
example, that when the wall was blown up some months earlier, 
they didn't see it blown up because they didn't have the video 
equipment to do it and it was pointed the wrong way. They told 
us they didn't have enough people to man the TOC, so they, in 
fact, were not there being able to pan and look for it. They 
told us they didn't have the people inside. And much of that, 
perhaps, is beyond the scope. But since people told us what 
assets they didn't have with specificity, and that will be in 
our report, yes, I would like to see what those tapes did 
discover.
    Ms. Lamb told us that there was somebody monitoring the 
TOC. Quite frankly, we were talk that they slept there and 
there were not people to constantly be panning those cameras. 
So I have like to see when they began panning them, example. 
And there is multiple evidence that we haven't gotten. We are 
not going to get it here today. I just wanted to make sure that 
the State Department would be clear that they have no 
objections to us having it.
    Mr. Cummings. Is that right, Mr. Kennedy?
    Mr. Kennedy. Mr. Cummings, Mr. Chairman, we defer to the 
law enforcement investigative elements on this matter.
    Chairman Issa. The FBI told me they don't have it and it is 
not theirs and they don't need it. So hopefully, you will stop 
using law enforcement, another part of government.
    Thank you.
    We now go to the very patient gentleman from Tennessee for 
5 minutes.
    Mr. Cooper. Thank you, Mr. Chairman. All Americans mourn 
the loss of the four brave Americans who died in Benghazi. It 
is important, I think, that we put their sacrifice, their 
tragedy in context; particularly, historical context. Serving 
America abroad is dangerous. And certainly every U.S. veteran 
knows that freedom is not free. Our State Department personnel 
know that too. But sometimes civilians comfortable here at home 
forget. And sometimes these terrible incidents are not covered 
as they should be. But sometimes we are focused on other 
things.
    I would like to read an honor roll of the fallen from a 
previous time. These men, in some cases women, died as victims 
of terrorists. It was in a different time, when we had a great 
President, Ronald Reagan, who is particularly known for his 
strength on national defense.
    I was only able to find a database of the Navy and marine 
victims. But there are 56 dead, 46 wounded. And a lot of us 
remember that as more or less a peaceful time. It was not. So 
let me read.
    Master Bosanmate Sam Novello, killed by Turkish leftists, 
Istanbul, Turkey; three marines wounded in a terrorist attack 
in Costa Rica; one crewman killed, three wounded from the USS 
Pensacola, attacked by terrorists in San Juan, Puerto, Rico; 
one U.S. embassy marine security guard wounded, Beirut, 
Lebanon; terrorist bombing of the U.S. Embassy in Beirut, 
Lebanon; Lieutenant Commander Albert A. Schaufelberger, killed 
by terrorists, San Salvador, El Salvador; Corporal Guillermo 
San Pedro, killed in a terrorist attack in Cyprus; Captain 
George Tsantes, shot by terrorists near Athens, Greece; 
Lieutenant Corporal Rudolfo Hernandez, killed in a terrorist 
attack, Germany; Hospitalman Carl P. Englund, wounded, Beirut, 
Lebanon; Petty Officer First Class Michael R. Wagner, assigned 
to the Defense Attache Office, killed; Civil Engineer Corps 
Builder Harvey L. Whitaker, killed; Builder First Class Steven 
E. Haycock and four marine security guards wounded in terrorist 
bombing of U.S. Embassy Annex, East Beirut, Lebanon.
    Seabees. Steelworker Second Class Robert Dean Stethem of 
Underwater Construction Team One, killed by terrorists, Athens, 
Greece; Off-duty marines assigned to Marine Security Guard 
Detachment, San Salvador, killed by terrorists armed with 
automatic weapons at a cafe in San Salvador; 37 killed, 5 
wounded when the USS Stark was struck by Iraqi missiles, 
Persian Gulf; terrorist grenade attack at the USO Club in 
Barcelona, Spain.
    Colonel Rich Higgins, killed by two pro-Iranian terrorists; 
USS Samuel B. Roberts struck by an Iranian mine, Persian Gulf; 
Japanese Red Army terrorist bombing of the USO Club in Naples, 
Italy; loss of an attack helicopter during operations against 
Iranian naval forces; and Captain William E. Nordeen, Defense 
and Naval Attache, killed by terrorist car bomb, Athens, 
Greece.
    And that was just during one administration of a President 
known for his strong defense policy.
    So we should be thankful for the sacrifice of our men and 
women abroad. As you pointed out, Ms. Lamb, you are in charge 
of 275 posts around the world. Too many Americans can't find 
these places on a map, much less appreciate the sacrifice and 
the risks involved of serving in many lawless zones.
    So I appreciate Lieutenant Colonel Wood and Mr. Nordstrom 
in particular for helping supervise our security needs in these 
posts, because the dangers are incredible, especially when we 
can live in comfort here at home. So thank you for your service 
and sacrifice.
    Mr. Burton. [presiding.] The gentleman's time has expired. 
The chair recognizes Mr. Gosar of Arizona.
    Mr. Gosar. Thank you, Mr. Chairman. First of all, my family 
would like to honor the memory of our fellow patriots that loss 
their lives in this senseless and preventable act of violence 
committed in Benghazi on September 11th, a day that will 
forever be regarded as a day of unity for American citizens--
and a warning. And with that, I am going to come back.
    In an interview with the committee yesterday, Ms. Lamb said 
that in May, 2012, Embassy Tripoli had come back and said 
things were going so great, the RSO gave up 6 of the 16 SSTs. I 
just assume that if the RSO, Nordstrom, was willing to give up 
assets and not ask for replacements, that he didn't need them. 
But, again, the functions that they were being used for were 
being slowly filled by local national employees.
    Lieutenant Wood, is it true in your time in Libya that 
things were going that great, and would you describe the 
conditions in Libya from your personal point of view?
    Colonel Wood. Yes, sir. From my personal point of view, 
things in Libya always remained difficult and uncertain and 
could devolve at any moment into further problems and result in 
loss of life almost at any minute. SST members were fully 
integrated with the diplomatic security people there and worked 
through and under all these difficult circumstances.
    I have a couple of things here I am trying to find.
    There were numerous incidents. Lawless situation was pretty 
much the norm. There was assassinations that went on of Qadhafi 
loyalists. And back and forth. Insurgent activity continued 
along the border town of Al Kufra, where it drained a lot of 
the meager resources of the fledgling government to go down 
there and try to put down rebellious and insurgent activity 
going on down there. There was no control of the borders or 
weapons smuggling in or out of the country. There was a loss of 
control of weapons types previously mentioned here--the 
shoulder-fired missiles. And tanks and anti-aircraft guns could 
be found in the possession of almost anyone anywhere in Libya. 
Tribal interests frequently competed with each other and 
resulted in fire fights. It was a common occurrence.
    When I first arrived on the ground in Tripoli, I got to 
where I could recognize celebratory gunfire from actual
    gunfire fights. They were shooting at each other. That did 
die off a little bit. However, we did notice an increase in 
targeted attacks towards Americans. These indicators spelled 
out to me that the country was far from secure and that the
    SST, as it had been originally conceived, was still in need 
at that location.
    Mr. Gosar. Well, in a document that was produced in late 
July--and I have that document right here. The document is over 
230 events in Libya since June of 2011. Mr. Nordstrom included 
this in his part of the general assessment on the security 
environment. In fact, prior to this attack on our embassy, 
didn't the Red Cross and the British consulate move out of 
Libya?
    Colonel Wood. Yes, sir, that is entirely correct. The 
British consulate moved out when I was there and they actually 
had an MOU with us to leave their weapons and vehicles on our 
compound there in Benghazi. They would come back and occupy at 
times, draw their weapons and vehicles, and do their work, and 
return them and leave.
    The attack on the International Red Cross was another 
attack that also involved us and threats to the compound there 
in Benghazi. The threats were made on Facebook to both the 
remaining Western influences there in Benghazi, being the Red 
Cross and the U.S. Embassy compound. The Red Cross was attacked 
with rocket-propelled grenades in early June. When it was 
attacked a second time, I believe they made the decision they 
were going to give up and leave Benghazi. When that occurred, 
it was apparent to me that we were the last flag flying in 
Benghazi. We were the last thing on their target list to remove 
from Benghazi.
    I voiced my concerns at the country team meeting. Although 
it was a difficult thing, the country team was left with no 
options at that point to try and change the security profile 
there in Benghazi. The resources had been withdrawn. The 
decision to not renew the SST was pretty much a foregone 
conclusion by that point in time, but I urged them to do 
something and anything, to include withdrawal from Benghazi, 
although I knew that was impossible at the time.
    Mr. Gosar. Thank you, Mr. Chairman.
    Chairman Issa. [presiding.] Would the gentleman yield to 
me?
    Mr. Gosar. I would happily yield to the chairman.
    Chairman Issa. Colonel Wood, you weren't there on September 
11. Mr. Nordstrom, you weren't there on September 11. My 
understanding is several Americans successfully got out alive. 
The three armed individuals who represented Libyan nationals 
survived. From your experience, from your combat experience, 
from your training, both of you, what is the marginal 
difference between everybody getting out and half or so getting 
out? In other words, the State Department has been saying 
effectively nothing could have stopped this, this was so 
overwhelming. My question is: What would it take? Would one 
more armed agent have made a difference that everyone would 
have gotten out? Would two more, three more? I understand we 
will never know for sure, but what is the difference between 
chaos and control in a fire fight? Colonel Wood?
    Colonel Wood. Superior weapons and superior tactics. That 
is what the SST brought to the table. Those were the qualities 
and attributes and the bolstering effect that they added to 
diplomatic security in this type of environment. When they were 
on the ground, those resident qualities were there for the use 
of the RSO. And when we left, they were no longer available as 
a possible resource.
    Chairman Issa. Mr. Nordstrom, you would agree; that if it 
became necessary.
    Mr. Nordstrom. Absolutely. In Tripoli, where we had--with 
the SST, I was never concerned that we would be able to repel 
any sort of assault there with the 16 and the additional DS 
agents.
    Chairman Issa. Thank you. We now go to Mr. Connolly.
    Mr. Cummings. Mr. Chairman, I ask unanimous consent for 1 
minute. You went 2-1/2 minutes over. Just a minute and a half.
    Chairman Issa. Would the gentleman from Virginia yield--I 
would ask unanimous consent the gentleman from Virginia has 6 
minutes. Would the gentleman from Virginia consider yielding to 
the ranking member?
    Mr. Connolly. I was hoping that the chairman was going to 
say that he asked unanimous consent to give a minute and a half 
to the ranking member. And I gladly would wait for that 
request, sir, and support it.
    Chairman Issa. Take what you get.
    Without objection, so ordered. Six minutes.
    Mr. Cummings. Thank you. The gentleman yields. Thank you 
very much.
    I just want to go back to something that you wrote in your 
statement, Mr. Nordstrom, in reference to the question that the 
chairman just asked you. And I quote you. I am reading from 
page 2. You said, ``Having an extra foot of wall or extra half 
dozen guards or agents would not have enabled us to respond to 
that kind of assault.''
    Did you write that?
    Mr. Nordstrom. Yes, I did. And I still believe that.
    Mr. Cummings. Thank you.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you to the 
ranking member. I just want to say, picking up on my friend 
from Tennessee's remarks, I was a young professional staff 
member in the Senate Foreign Relations Committee in the early 
1980s when Ronald Reagan was in the White House and our marine 
amphibious unit was attacked by a truck bomb at the Beirut 
airport and dozens and dozens of young Americans were killed.
    I had just been to Beirut on a Senate staff study, and 
shortly after I returned, our embassy was bombed in downtown 
Beirut, killing many more Americans, including a good friend of 
mine who worked at that time for USAID.
    It is very serious business when tragedies occur in a 
dangerous world. To attempt to exploit it politically--and I 
know we are not trying to do that here, 27 days out from the 
election.
    Colonel Wood, you testified that you had concerns and you 
approached--you are with the Utah National Guard, is that 
correct?
    Colonel Wood. Yes, sir.
    Mr. Connolly. And you approached your Congressperson with 
these concerns. I assume that is our colleague, Mr. Chaffetz?
    Colonel Wood. Yes, sir. Initially, I tried to make contact 
with Senator McCain, because he had made several visits to 
Tripoli. I was unable to get a response from his office.
    Mr. Connolly. I thank you. And about what time did you 
approach your Congressperson with these concerns?
    Colonel Wood. I sent an email on Sunday, I believe it was 
the 28th of September.
    Mr. Connolly. Of September. So fairly recently?
    Colonel Wood. Yes, sir.
    Mr. Connolly. Are you aware of the fact that the Democratic 
side of this aisle made several attempts, including an email to 
you last weekend, to try to contact you and to have some 
opportunity to explore with you the nature of those concerns 
you shared with Mr. Chaffetz, and possibly to understand what 
you might be testifying to today--a common, by the way, 
practice?
    Colonel Wood. Yes, sir. I assumed that the information I 
was giving would be shared to the whole committee at some 
point. I wasn't sure when.
    Mr. Connolly. So that is why you did not respond to the 
emails from Democratic staff members?
    Colonel Wood. Yes, sir.
    Mr. Connolly. You weren't, in any way, to pick up on Mr. 
Jordan's questioning of, or others on the panel, you weren't in 
any way encouraged or discouraged from talking to the 
Democratic side of the aisle in preparation for this hearing?
    Colonel Wood. No, sir. It was simply easier for me to talk 
to one point of contact. With everything else I had going on, 
it was just easier to do.
    Mr. Connolly. I thank you.
    Ambassador Kennedy, is there an ongoing investigation into 
what occurred in Benghazi?
    Mr. Kennedy. Yes, Mr. Connolly, there are actually two 
ongoing investigations, one being conducted by the Federal 
Bureau of Investigation, and another being conducted by the 
Accountability Review Board, which is a congressionally-
mandated process that comes into being after a tragedy of this 
nature.
    Mr. Connolly. And when do we expect those investigations to 
be completed and a report provided?
    Mr. Kennedy. I cannot speak to the FBI investigation, sir. 
That is beyond my kin. But I know that the Secretary has asked 
the Accountability Review Board to proceed as expeditiously as 
possible while making sure that they are thorough and accurate.
    Mr. Connolly. So we are having this hearing as those 
investigations have not completed their work or provided their 
findings?
    Mr. Kennedy. That is correct, sir.
    Mr. Connolly. I see. One of the things, if I am 
understanding, is it is awfully hard for me and others, I 
think, to follow what we are trying to get at here. Would you 
agree, Mr. Nordstrom, that certainly the Libya I experienced 
briefly--I was in Libya about the same amount of time I believe 
our colleague Mr. Chaffetz was, and I don't know, did he go to 
Benghazi? I don't think he went to Benghazi. Did you, Mr. 
Chaffetz?
    Mr. Chaffetz. No. I was not allowed to go.
    Mr. Connolly. Right. He and I both went to Tripoli. I was 
there in May. And it seemed a very volatile situation in terms 
of too many people with too many weapons, lots of militia, 
trying to keep control over who was a good guy and who was a 
bad guy. No matter how many security personnel we might have 
had in the field, that was a problem at that time, and I gather 
is still. Would that be an accurate assessment, Mr. Nordstrom.
    Mr. Nordstrom. It was. That was one of our main struggles, 
just trying to figure out who was who.
    Mr. Connolly. Right. And so inherently unstable as we are 
trying to transition from Qadhafi to something we hope is more 
democratic--a lot more democratic and more stable. Fair?
    Mr. Nordstrom. Correct.
    Mr. Connolly. Okay. Ambassador Kennedy described it not so 
much as a dispute as we are going back and forth about needs 
assessment. And it was your recommendation that the site 
security team be extended a third time, is that correct?
    Mr. Nordstrom. That is correct.
    Mr. Connolly. And, Mr. Ambassador, your view was, or your 
colleagues' view was actually we are trying to graduate from 
that. And we think we have got the assets to do that. 
Therefore, for whatever reason, that request was not honored 
because it was felt that it wasn't needed or what?
    Mr. Kennedy. Mr. Connolly, what we were trying to do is 
build in a State Department capacity to replace the personnel 
we had borrowed from the Department of Defense. The SST was 
great. We really appreciated the assistance they were 
providing. They provided some airport analysis that the airport 
was finished. They provided medical capability. The State 
Department replaced it with its own medical capability. They 
provided communications capability. We replaced that with the 
State Department communications capability. And then they also 
provided direct security assistance personnel, wonderful 
colleagues from that unit. We were also, though, replacing 
them, as we do all over the world, by building an inherent 
State Department capability. And my colleagues believed we had 
achieved that right balance between what the State Department 
could provide and what the military had been providing to us 
when we were not ready to assume those responsibilities.
    Mr. Connolly. Thank you. My time is up, Mr. Chairman.
    Chairman Issa. The best part is you got that extra 30 
seconds and some you wanted, very artfully.
    Mr. Connolly. You are always generous. Thank you, Mr. 
Chairman.
    Chairman Issa. With that, we go to the gentleman from 
Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. One of the most 
difficult jobs I have as a Congressman is to call the families 
of the men and women who lose their lives in service of this 
country. And I take that responsibility very, very seriously.
    I am looking right now--and I am really confused, 
Ambassador Kennedy, by some of the statements that your making 
today. In particular, the statement that has been addressed 
before. You said, for example: If any administration official, 
including any career official, were on television on Sunday, 
September 16, they would have said what Ambassador Rice said. 
The information she had at that point from the Intelligence 
Community--and I see how specific you are being--from the 
Intelligence Community, is the same that I had at that point.
    Can you explain to me how it was that on September 12 you 
told congressional aides that you believed there was a 
terrorist attack?
    Mr. Kennedy. Congressman, I told them that that was my 
personal opinion and that I also believed that it was, because 
of the nature of it and the lethality of it, that it was a 
complex attack.
    Mr. Labrador. So how can you say here today that--the 
following day, you had an idea that it was a terrorist attack, 
in your opinion--I understand you claimed you are not a 
security expert--but in your opinion, it was a terrorist 
attack, how can you claim today that you would have made the 
same statements that Ambassador Rice would have made on TV?
    Mr. Kennedy. Ambassador Rice was asked certain questions 
about information that she had in her possession. And that was 
the same information I had in my possession.
    Mr. Labrador. But you came to a different conclusion from 
your information.
    Mr. Kennedy. No, sir, I did not.
    Mr. Labrador. Yes, you did. The statements are clear. Let 
me just ask you, you said today that there were multiple 
reports. And you didn't want to specify what those multiple 
reports were about what happened on September 11. Can you tell 
us at least when those multiple reports came out?
    Mr. Kennedy. I would have to go back and refer to notes, 
sir.
    Mr. Labrador. Did they come out a day after the incident, 2 
days after the incident?
    Mr. Kennedy. I will be glad to get that information.
    Mr. Labrador. That is crucial. You knew you were coming 
here to testify before Congress. And you are coming here to 
tell us that there were multiple reports. You cannot tell us 
when those reports came out?
    Mr. Kennedy. As I said earlier, Mr. Labrador, we were in an 
evolving series of reports over every day since the 12th of 
September.
    Chairman Issa. Would the gentleman suspend?
    Mr. Labrador. Yes.
    Chairman Issa. Ambassador Kennedy, I want to make it clear, 
the gentleman's asking a reasonable question. To the best of 
your ability, approximating, we know that 7 days after the 
attack there were, in fact, false statements made. The 
gentleman's only trying to figure out how many reports continue 
to come to you 7 days, 6 days, 5 days, 4 days. Give us your 
best estimation and then we will let you be accurate for the 
record exactly.
    The gentleman may continue.
    Mr. Labrador. Can you answer that question?
    Mr. Kennedy. Mr. Chairman, Mr. Labrador, I am not going to 
speculate on numbers that I don't have firmly in my head, sir.
    Mr. Labrador. Can you tell me if there was at least one 
report before September 16 that contradicted what that 
Intelligence Community was telling you and Ambassador Rice? Can 
you answer that question?
    Mr. Kennedy. I don't remember--I don't remember a report 
that contradicted what the Intelligence Community was telling 
us. No, sir, I do not remember.
    Mr. Labrador. You just told us here there were several 
reports. And you said there were multiple reports that had 
different conclusions.
    Mr. Kennedy. As I said in response to an earlier question, 
you are asking me to go into the nature of classified reports. 
And I cannot do that in this session.
    Mr. Labrador. Okay. It is pretty clear that you are coming 
here with information about reports that you are unwilling to 
say. And I think we are going to have to have a classified 
hearing at some point.
    I just have a quick question for Lieutenant Colonel Wood 
and Mr. Nordstrom. Given the information that you saw on TV and 
your knowledge of the situation in Libya, did you come to a 
conclusion as to whether this was a terrorist act or whether it 
was based on some film that was on the Internet? Lieutenant 
Colonel Wood.
    Colonel Wood. It was instantly recognizable to me as a 
terrorist attack.
    Mr. Labrador. Instantly recognizable.
    Colonel Wood. Yes, sir.
    Mr. Labrador. And why is that?
    Colonel Wood. Mainly because of my prior knowledge there. I 
almost expected the attack to come. We were the last flag 
flying. It was a matter of time.
    Mr. Labrador. Mr. Nordstrom, same question.
    Mr. Nordstrom. The first impression that I had was that it 
was going to be something similar to one of the brigades that 
we saw there. Specifically, the brigade that has been named in 
the press that came to my mind was Ansar al-Sharia. It was a 
unit or a group that Lieutenant Colonel Woods' personnel and I 
had tracked for quite some time; we were concerned about. That 
specific group had been involved in a similar but obviously 
much smaller-scale incidents at the end of June involving the 
Tunisian consulate in Benghazi, where they stormed that 
facility and it was in protest to what they claimed was an 
anti-Islamic film in Tunis.
    Mr. Labrador. Thank you very much. I just want to make it 
clear for the record that on September 16, Ambassador Rice went 
on TV. And I am assuming it was at the direction of this 
administration. She was not there on her own. I am sure she has 
better things to do on a Sunday morning. And she went to 
specifically tell the American people that all of the 
Intelligence information led to only one conclusion, when it is 
clear that Intelligence experts, security experts, and even 
Ambassador Kennedy, looking at the information that was 
happening on TV, could have concluded something different. I 
think that is outrageous and it is shameful.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Illinois, who has been patiently waiting, Mr. 
Davis, for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. I want to 
thank all of the witnesses for participating by appearing here 
with us today. I also want to commend all of the brave men and 
women who risk their lives on a daily basis by serving in these 
high-risk areas. I also extend my condolences to the families 
of those who lost their lives or were injured during this 
tragic attack.
    Following the death of longtime ruler Muammar Qadhafi, 
Libya and its citizens entered a critical transition period. 
Ambassador Stevens once described this period as ``a time of 
great excitement as the Libyan people first experienced 
freedom, but also a time of significant trepidation for what 
might come next.'' Ambassador Stevens, I think, obviously, was 
correct.
    Ambassador Kennedy, Benghazi was the cradle of the 
revolution. Could you explain to us the importance of the 
diplomatic mission in Libya and the special post in Benghazi?
    Mr. Kennedy. Thank you much, sir. Absolutely. Benghazi was 
the cradle of the revolution. There is essentially two major 
parts of Libya: east and west. In order to help the Libyans 
move forward, to help the Libyans take advantage of their 
newfound freedom and to build a democratic structure we all 
wish for any nation to have, we could not hunker down, we you 
could not stay out. As I mentioned earlier, the State 
Department has to go into harm's way. If we are going to 
advance U.S. national security interests, we cannot retreat.
    We have to go, to use a colloquialism, we have to go where 
the action is. We will take every step we can to mitigate the 
risk to our personnel abroad. But we cannot end those risks, we 
cannot stay out of the action. We have to go there. And 
because, as you correctly posit, sir, because of the importance 
of Benghazi and the development of the new Libya, we had to 
have a forward operating location there and we had to have 
visits there by Ambassador Stevens.
    Mr. Davis. Thank you very much. Mr. Nordstrom, on the other 
side of this, can you describe some of the challenges faced by 
security offices in analyzing security risks while allowing the 
diplomatic mission to interact with the local leaders and 
individuals in the population and still be effective?
    Mr. Nordstrom. Absolutely. That was one of the tensions 
that we always had. We obviously understood the need to engage 
across a wide spectrum of programs. That was one of the main 
reasons we wanted that security resources, so that we could 
deploy sufficient resources to respond when there was a 
problem.
    There was not open warfare at all times in Libya. Generally 
speaking, we saw a lot of improvements. It was fairly 
permissive during the daytime. Things started to heat up after 
hours. We had sort of a joke--I saw that it was in the 
newspaper--but we had a saying that in Libya, you would be fine 
until you are not.
    Our problem was if someone found themselves in an issue. We 
had three officers specifically trapped in the prime minister's 
building when it was stormed by some fighters protesting a pay 
issue. Were we going to have sufficient people who could 
respond and navigate their way in and extricate those people? 
With time and with less resources, we were not going to have 
that.
    One of the frustrating things that I found early on, and as 
I mentioned in my testimony, I was extremely pleased with the 
planning to get us into Libya. The frustrating thing that I 
found is once the first teams and the first TDYers started to 
expire at 60 days, there was a complete and total absence of 
planning that I saw in terms of what we were supposed to do 
from that point on. So when I requested resources, when I 
requested assets, instead of supporting those assets, I was 
criticized, and somehow it was my responsibility to come up 
with a plan on the ground and not the responsibility for DS. I 
raised that specific point in a meeting with the DS director in 
March; that 60 days, there was no plan. And it was hope that 
everything would get better.
    Mr. Davis. Mr. Chairman, can I ask for unanimous consent 
for 15 additional seconds?
    Chairman Issa. Without objection, so ordered.
    Mr. Davis. Thank you very much. Ambassador, could you tell 
us how security risks at a post are evaluated and when are 
requests for increased staff or resources justified?
    Mr. Kennedy. Yes, sir. We have a formula that we try to 
use. It is not a quadratic equation. But we look at the 
stability of the government, the threats against us, host 
government counterterrorism capability, the setback, the 
physical plant that we can muster, the ability to get 
sufficient local guard capability there. We put all that 
together. But in the end, this is an inherently risky 
operation. We cannot withdraw always to fortresses.
    We look at this and then we try to place, as we believe we 
placed in Libya, on the basis of all the information we had to 
date, all the information we had, we put a security program 
into effect. That is what we call risk mitigation. We cannot 
end the risk. If we cannot achieve that level of risk 
mitigation, as we did in Damascus or as we have done in other 
locations, we simply remove our personnel from there because we 
cannot achieve that level of risk mitigation.
    Mr. Davis. Thank you very much. I appreciate the 
courtesies.
    Chairman Issa. Happy to do it. With that, as a favor to the 
former chairman of the full committee, I would ask unanimous 
consent he have 2 minutes to speak out of order. Without 
objection, so ordered.
    Mr. Burton. Thank you very much, Mr. Chairman. I thank my 
colleagues. I will be real brief. First of all, Colonel Wood 
and Mr. Nordstrom, you said that al Qaeda is growing and it is 
even exceeding our goals in Libya right now. Is that correct?
    Colonel Wood. Yes, sir, I make that assessment.
    Mr. Burton. Mr. Nordstrom, you saw Ansar al-Sharia, which 
is another terrorist group loosely affiliated with al Qaeda, is 
very active there, too, and was involved?
    Mr. Nordstrom. Interestingly, I would not say it was 
necessarily affiliated. It was actually one of the brigades 
which fell under the control, if you want to call it that, of 
the Libyan government.
    Mr. Burton. But it is a terrorist organization as well?
    Mr. Nordstrom. Not according to the Libyan government. It 
was actually one of their pseudo-militias.
    Mr. Burton. What is your assessment?
    Mr. Nordstrom. We were concerned that it was an extremist 
organization that wanted to bring----
    Mr. Burton. Don't split words. It is a terrorist 
organization.
    Okay. Ms. Lamb, there were three mobile security 
detachments; 18 people, six in each one of those detachments. 
They were supposedly asked to stay, the leadership did. And you 
were required to make a decision. They left and they were not 
replaced. They were supposed to be backfilled by diplomatic 
security agents. The 16 troops that--and you said you were 
watching in real-time, incidentally. That is very interesting. 
But the 16 troops that were supposed to be replaced, or were 
going to be requested to be replaced, you said no. And then you 
said they were going to be in Tripoli. But the fact of the 
matter is they not only worked in Tripoli, but when needed, 
they went down to Benghazi. Is that not right?
    Ms. Lamb. I believe they made two to three trips.
    Mr. Burton. I know, but they did go to Benghazi. And they 
could have gone to Benghazi. But they weren't there, so they 
were gone. And you decided that you thought that they shouldn't 
be redeployed.
    Ms. Lamb. No, sir. As Under Secretary Kennedy has stated, 
the specialized skills that they brought when they came 
originally had been backfilled by other parts of the State 
Department. And the specialized skills----
    Mr. Burton. But not with U.S. military?
    Ms. Lamb. No, sir.
    Mr. Burton. Okay. That is all I need to know. I really 
appreciate you folks taking all the time you have today.
    Chairman Issa. I thank the gentleman. Colonel Wood, would 
you just respond? You looked like you were chomping at the bit 
when Ms. Lamb talked about specialized skills. She made an 
assessment. Would you agree with that?
    Colonel Wood. No, sir, I would not agree. A special forces 
soldier is way above the skill level of a hired local national 
armed with a pistol, or even the MSD agents that were on the 
ground there as well. 
    Mr. Burton. Thank you.
    Chairman Issa. Thank you. I think I remember the quote: 
Never take a knife to a gunfight.
    With that, we go to the gentleman from Connecticut, Mr. 
Murphy.
    Mr. Murphy. Thank you very much, Mr. Chairman. I add my 
gratitude to those members of the diplomatic corps and military 
who are putting their lives on the line for this country. And, 
of course, my sympathies to the families of those that were 
lost.
    Mr. Chairman, I think you had maybe one of the most 
important lines of questioning about 20 minutes ago when you 
were inquiring as to what level of security might have really 
been necessary to repel this attack. I maybe wanted to pursue 
that one step further with you.
    Chairman Issa. Would the gentleman yield for a second?
    Mr. Murphy. Sure.
    Chairman Issa. Your characterization is almost exact. I was 
actually talking about in order to extricate successfully those 
who otherwise died. Ultimately, I think it was made clear that 
you can't repel forever typically that size force.
    Mr. Murphy. I simply wanted to expand on that line of 
questioning with Mr. Nordstrom. Because you very clearly do say 
in your testimony that the numbers that we are arguing about 
today, one or two additional unarmed security forces, six or 
seven armed security forces, may not have made the difference. 
You didn't really get the chance to answer that question fully, 
so I want to pose it again to you.
    When you look back on this attack and you look at what was 
requested versus what would be necessary to either fully 
extricate everyone or to fully repel an attack such as this, do 
you think there is any amount of sort of reasonable numbers 
that could have been present on the ground there at the time 
that would have prevented this attack and this tragedy?
    Mr. Nordstrom. Again, I am just hesitant to speculate on 
the specific numbers, but I think it goes without saying that 
having more resources on the ground is generally not something 
that you are going to turn down in a firefight. I would rather 
have more guns. I would rather have more Special Forces 
soldiers that have combat experience. And I would rather have 
more armed DS agents on the ground. Certainly the more of those 
you can bring to bear, I think the outcome is going to tip in 
your favor.
    Mr. Murphy. And sort of a similar question to the 
ambassador. You know, we shudder at the notion that an attack 
like this could happen in the future, that this exceptional 
event in which 120 attackers, armed with assault rifles and 
rocket propelled grenades, could pose a threat to another 
installation. What is our position on trying to equip our 
outposts with the kind of armor and staffing that would be 
necessary to repel an attack of this size? Is that possible? 
And does this attack reframe your position and our country's 
position in terms of the resources that we give our outposts?
    Mr. Kennedy. Sir, we are never going to be able to achieve 
a defense of an American facility abroad against that level of 
lethality with internally generated resources. What we try to 
do, and we have done it in many places around the world, and we 
are still constructing more and more, is we construct new 
embassies, and we build into those new embassies physical 
protections that we hope will permit our personnel who will 
have withdrawn into that building with the capability to wait 
until the host government, as they are required to do under the 
Vienna Convention and diplomatic law, responds to our attack.
    But an attack of that kind of lethality, we are never going 
to have enough guns. We are a diplomatic service. We have I 
think some of the finest law enforcement professionals in the 
world in the diplomatic security Service, but we are not an 
armed camp ready to fight it out as the U.S. military does if 
there was an attack on a U.S. military facility in Afghanistan, 
using that as a current example.
    Mr. Murphy. So let me just ask a variant of that question 
to you, Ambassador. What have we learned, and what has 
potentially changed? If we can't repel this kind of lethal 
attack, are there changes that you can share with us--some of 
them may be classified--as to how we protect our installations 
abroad?
    Mr. Kennedy. The Accountability Review Board now, which is 
currently meeting, is going to judge whether our security there 
was adequate for the information that was available to us, 
whether we implemented it correctly, and whether or not there 
are lessons learned.
    Mr. Murphy. So they will make recommendations?
    Mr. Kennedy. They will make recommendations, yes, sir.
    Mr. Murphy. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman. The chair would 
announce that we know that there are some members who will have 
flights to catch since we are not in session broadly today. If 
anyone needs to go first, if you get close to your deadline, 
please inform the chair, and we will reserve the right to take 
people out of order.
    But for now, we go to the gentleman from Pennsylvania, Mr. 
Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Mr. Nordstrom, you made a comment, a complete and total 
absence of planning.
    Lieutenant Colonel Wood, you were brought in the first 
place to the country, part of a team that was in place to both 
be responsive, but to provide security, one of three teams of 
16 people associated with the Department of Defense, not coming 
from the budget of Mrs. Lamb, but nonetheless providing. And I 
see a tale of two cities. That while you have that kind of 
force early on in the process, notwithstanding your requests, 
continuously that group is worked down from, three teams to 
finally one team towards the end, instead of 16, your final 
request in which it is eight.
    At the same time, we see a worsening of the circumstances. 
I see this is a draft from Joan Polaschik in February of the 
month: Overall security conditions continue to be 
unpredictable. Large armed groups, not under the control of the 
central government. The continued presence of Security Support 
Teams was essential to provide static security in the absence 
of an appropriate local guard force.
    Now, we saw with this a litany of issues, the IED thrown 
into the diplomatic post in Benghazi, the RPG attack on the Red 
Cross, the IED attack, a second one on the--we see a litany. 
Colonel Wood, was there the capacity to be able to provide the 
kind of security that you thought was necessary while things 
continued to get worse?
    Colonel Wood. Yes, sir. I thought that was the genius 
behind the design and construct of the SST. It brought all the 
elements of government power together for the embassy, the 
diplomatic, the informational, military, and economic. It gave 
them the military side of that governmental power that we can 
project abroad. It gave them the expertise of some of the 
finest quality soldiers in the world and the backup resources 
that they could tap into at SOCAFRICA and AFRICOM as well to 
provide them with all the intelligence and additional 
capabilities. Why they would turn that asset down is best 
answered by themselves.
    Mr. Meehan. Let me ask you about this process called 
normalization. There was an effort during this period of time 
as well to transition from people who were trained here by the 
United States, our soldiers, et cetera, who were in country, 
and to transition to trained locals, largely Libyans. As I 
understand it, there was a posting that would be put out where 
they just asked for people to apply for those positions. You 
were there. Part of your responsibility was to train those 
locals to be able to do the work. From your professional 
opinion, were there sufficient numbers sufficiently trained to 
be able to provide the kind of security that should have been 
necessary in the circumstances?
    Colonel Wood. Sir, I think Eric Nordstrom can back me up on 
this. The individuals that were trained were local Libyans that 
we had hired. Indeed, you are correct that way. The SST 
participated with MSD in training some of those individuals. 
But the caliber and quality I think was subject. I can see 
where they are dealing with numbers on this end of the table, 
adding up numbers on a piece of paper. I think it reflects, 
from the description of the Benghazi compound, not being 
accurate in the fact that the RSO and security agents there had 
to sleep with their weapons. With the secure communications, 
they didn't have a complete understanding of how difficult it 
was or failed to recognize that.
    Mr. Meehan. Ms. Lamb, why your response that this needs to 
be something in which these professionals need to be replaced 
by locals who, by a professional opinion, aren't sufficiently 
trained to do the work?
    Ms. Lamb. Sir, this is the same model that we used in 
Sana'a. It has been very successful. These trained guards 
protected----
    Mr. Meehan. Did you take any time to listen to the reports 
that were coming up during the period of time that the events 
were getting worse? Not the same model. But was there specific 
attention paid to the events in country?
    Ms. Lamb. Yes. And at the same time, post had reduced their 
travel policy. Instead of moving with full motorcades, they 
were allowing personnel to go out with an embassy driver and a 
hard car. So the positions that were being filled by this team 
and by our team members had been reduced. They were using a 
quick reaction force that was available for multiple people to 
be moving with drivers. And it reduced the numbers that were 
needed at post.
    When asked to do a function earlier in his testimony today, 
Eric Nordstrom cited the fact that he had requested 12 armed, 
plus six more. In essence, we had actually worked out with his 
desk officer, they had outlined a program that he needed 21 
armed security personnel. We had made a commitment from 
Washington that we would provide him with 23. It has not 
dropped below that number since that commitment was made.
    Mr. Meehan. Mr. Chairman, may I ask one just additional 
question not in response?
    Chairman Issa. Briefly.
    Mr. Meehan. Reports came.
    Mr. Ambassador Kennedy, reports have been made, public 
reports, in which it has been stated that the imprisoned Omar 
Abdel-Rahman Brigades--this was on CNN--is believed to have 
possibly been one of the groups that is suspected of carrying 
out these terrorist attacks. CNN has reported that. Are you 
aware of any determinations at this point in time in which 
there has been any discussions within the State Department for 
the potential transfer or release of the blind sheik from 
American security?
    Mr. Kennedy. I am unaware of any such discussion, sir.
    Mr. Meehan. It says the State Department--this was in 
September--the State Department said that the topic had not 
come recently from any senior official in Egyptian authorities. 
So you are aware of no discussions whatsoever that involve the 
State Department for any kind of a transfer or release of the 
blind sheik from incarceration or otherwise?
    Mr. Kennedy. That is correct, sir. I am unaware of any such 
discussion.
    Mr. Meehan. Are you prepared on behalf of the State 
Department to make an unequivocal statement that there will not 
be a release of Abdel-Rahman.
    Mr. Kennedy. I am not going to appear to avoid that 
question, sir, but I am the Under Secretary of State for 
Management. I have a series of responsibilities. And that is a 
question I will be glad to take for the record to get a 
complete State Department position for you.
    Chairman Issa. I thank the gentleman.
    Mr. Nordstrom, you were trying to answer the previous 
question. You want to respond on that.
    Mr. Nordstrom. Yeah. I would like to actually, if I could, 
make a couple points on that. DAS Lamb mentioned that we had 
shifted to a, quote, lesser security profile. I would like to 
point out that that was done in March. That was done because we 
had 18 DS agents, and we were told that it was going to move to 
12. Three MSD teams down to two MSD teams. There was an 
emergency action cable dated in March that specifically 
references that. And if I recall, in general recollection, that 
the tone of that was that since we had no choice, because we 
did not have the assets, we had no other option but to move to 
a model, not unlike in basketball, moving from man to man 
defense to a zone defense. So I think that is an important 
point to make.
    The other point that was made earlier about the reduction 
of SST by six persons, that is something that Colonel Wood can 
back me up on as well. Those six SST did not leave country. 
Those six SST were still there on compound, could provide us 
internal defense support. What they were doing was involved in 
training and liaison with Libyan Special Forces.
    Now, why were we doing that? Because as I have testified 
before, we had absolutely no ability to call upon a host nation 
force in the event that we were attacked. Our conclusion was 
the Libyan Special Forces was one such force that we might be 
able to count on. So we saw that very much as bolstering our 
internal defense and our footprint.
    Chairman Issa. And Mr. Nordstrom, we placed in front of you 
something that a different whistleblower gave us. Is that the 
document you are referring to on May 28th? Or March 28th, I am 
sorry.
    Mr. Nordstrom. This was the specific one in terms of a 
follow up for support. But there was an earlier document in 
March where we adjusted our movement transportation because we 
simply would not have the bodies to provide a security agent in 
each vehicle.
    Chairman Issa. Thank you.
    Ambassador Kennedy, I would now request that that earlier 
document that has been testified to be taken out of your in 
camera review and delivered to us. Would you do that?
    Mr. Kennedy. I will take that request, sir. Yes, sir.
    Chairman Issa. No, no, I am asking you now.
    Mr. Kennedy. Mr. Chairman, I have not had--I have not had a 
chance to review the document. I have not had a chance to----
    Chairman Issa. Wait, wait, wait. Wait a second. You can't 
come to a hearing and tell us that you haven't reviewed the 
documents you were going to allow in camera review of, and you 
have allowed it. Somebody on your staff has.
    At this point, I will enter into the record the March 28, 
2012, and specify that the earlier document is being withheld 
by the State Department. I regret that. Hopefully, you will 
reconsider so that it can be put in the record reasonably close 
to real time.
    Mr. Kennedy. Mr. Chairman, if I might, I did not say I was 
denying it. I was simply saying that since I do not have the 
document in front of me, I have not had a chance----
    Chairman Issa. David, would you put the document in front 
of the ambassador, please? You have it, don't you? It is in the 
in camera. Would you put it in front of the ambassador at least 
so he can at least see it in camera? You will have to remove 
it--it is an unclassified document--so that the ambassador can 
see it.
    With that, would the staff please make sure--this one is 
being distributed while we will see whether we will get the 
other one.
    Okay. It has been distributed.
    Okay. Not wanting to delay this any further, we will come 
back to this, Ambassador.
    With that, we go to the gentleman from Pennsylvania, Mr. 
Kelly, for 5 minutes. And I thank him for his patience.
    Mr. Kelly. Thank you, Mr. Chairman.
    And thank all of you for being here today.
    The question really isn't about the patriotism and the 
heroics of the people that lost their lives that day. It's 
really, what can we do to prevent that from ever happening 
again? And I am kind of surprised. You know, I come from 
western Pennsylvania. And people look at things in maybe a 
little different fashion. When I am down here in Washington, 
D.C., amid all these brains and all the intelligence, and you 
get back home and you talk to people, if I were to say to you, 
Lieutenant Colonel Wood, what does 9/11 mean to you?
    Colonel Wood. This last 9/11?
    Mr. Kelly. No, just any--just 9/11. Like I would say 
December 7th. What does December 7th? 9/11----
    Colonel Wood. It is an attack upon the United States of 
America.
    Mr. Kelly. Mr. Nordstrom.
    Mr. Nordstrom. The same.
    Mr. Kelly. Ms. Lamb.
    Ms. Lamb. The same.
    Mr. Kelly. Ambassador.
    Mr. Kennedy. Absolutely, sir.
    Mr. Kelly. Okay. So if you can all connect the dots right 
here, why in the heck did it take so long for all these highly 
briefed and intelligent people to try and figure out that it 
actually wasn't a 15-minute YouTube video; it actually was a 9/
11 event, a terrorist attack? Now, I don't know--look, this 
stuff about what is classified and not classified is getting 
confusing for me because I sat in a Members-only briefing.
    And Mr. Chairman, I ask, this is on September the 20th with 
Secretary Clinton and some other personnel. Is that something 
we are allowed to talk about or not allowed to talk about?
    Chairman Issa. If it was in a classified setting, the only 
thing that I would think would be appropriate is any 
inconsistencies you have seen in testimony today, you could 
relate. Otherwise, the specifics I couldn't judge it from the 
dais.
    Mr. Kelly. Okay. Well, it comes down to this, what caused 
this?
    And Ms. Lamb, I read through your testimony. I think it 
would be horrible to sit there and watch it in real time what 
was going on. And I read another account where, this is kind of 
strange, that same night, this is about the ambassador, at 8:30 
p.m. the ambassador said good night to a visiting Turkish 
diplomat outside the compound, and the streets were empty. But 
at 9:40 p.m., noises, gunfire, and an explosion were heard by 
the agents located in the TOC and Building B.
    It is absolutely preposterous to me that we would watch 
Ambassador Rice go out and say what happened 5 days later. That 
I would sit in a briefing, and it was, no, you have it all 
wrong. This is not a terrorist attack. This is a result of a 
15-minute YouTube. Now, we are either in denial or 
unfortunately--and I don't if some of the Members are 
concerned, because I got to tell you; it is very unfortunate 
that terrorists don't recognize that this is an election year. 
And they tend to just do what they want any time they want to 
us. And when we have a weakened position around the world, and 
when we leave our embassies and our consulates and our people 
as unprotected as we do, and then we say, you know what, this 
is terrible because this is 27 days before an election, why are 
we bringing it up now?
    And I ask the same question. Where the heck were we before 
9/11, this 9/11? Why weren't we questioning it then? My 
goodness, 230 security instances in Libya between June of 2011 
and July of 2012. Of those attacks, 48 took place in Benghazi, 
two of which at the U.S. diplomatic compound and the scene of 
the September 11th, 2012, terrorist attacks. And we are still 
saying I think it is the result of a video that was on YouTube. 
And this is based on intelligence.
    Now, listen, I got to ask you, Ambassador Kennedy, because 
you say you couldn't possibly have had a different idea about 
it than Secretary Rice did when she went before the Nation on 
September the 16th.
    I am going to tell you this thing smells from every single 
end. Listen, it waddles like a duck and quacks like a duck; it 
is a duck. And for you to come in here and say, well, it was 
based on some of the things I knew, but I can't tell you all 
that I knew, we have got four Americans dead. And I got to tell 
you, it is very upsetting for me to go back home and look at 
those people in the eye, people who don't do what we do here, 
with all the briefings and all the intelligence, just guys that 
go out and work every day and women that go out and work every 
day, and they can come home, and they can figure it out. But we 
are still trying to figure it out and piece it together, and 
you watched it in real time? And the account wasn't there of 
the ambassador that night saying goodbye to a Turkish friend 
outside the gates and everything was quiet. But my goodness, 
those terrorists got ahold of--these Islamic extremists got 
ahold of that video, and between 8:30 and 9:40, they decided to 
just go crazy. And Africa is on fire.
    And Mr. Nordstrom, thank you for pointing out, as Mr. 
Romney did, that hope is not a strategy.
    And I feel sorry for you and Lieutenant Colonel Wood to 
have to come here because it is you who were on the ground. You 
are not watching it in some far away room in real time. Your 
people are there in real time. We have watched our colleagues 
be killed. And the question doesn't become, what is it that we 
didn't know? It is because we have become lax. We have dumbed 
down. We have turned down the dial.
    You know, by the way, at the same time--and I know it is 
about the money to some degree, right? Although I saw a whole 
list of all the things that we were able to do. Apparently, it 
wasn't for the money there. You know that the embassy in Vienna 
in early May, we did a beautiful, beautiful presentation of the 
embassy going green. Spent $110,000 on a little electrical 
thing to plug the cars in. Had two Volts there. Had 100 people 
there. We are sipping champagne and eating hors d'oeuvres, and 
my goodness, my goodness. On September 11th, we had a tough 
day. And a couple of bumps in the road.
    Chairman Issa. I thank the gentleman.
    Mr. Kelly. I got to say, Mr. Chairman, I appreciate it. I 
know I am going over. But the people of America should be 
outraged to have to sit here and listen to what we are saying 
and say, what are we doing to protect the other embassies and 
our personnel? They are true patriots. But you know what they 
rely on? The State Department for their security. And we let 
them down.
    Chairman Issa. Thank you, Mr. Kelly.
    Mr. Kennedy. Mr. Chairman?
    Chairman Issa. There was no question there, Ambassador. I 
perceive no question. The gentlemen felt he had no question.
    With that, we go to the gentleman from Florida for 5 
minutes, Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman.
    Thank you. Mr. Nordstrom, earlier in your testimony you 
were discussing your recollection of a conversation that you 
had had with two agents in the room regarding the denial of the 
extension of the SST. Now, and it was your understanding that 
you were not to request an extension at that point. Is that 
correct?
    Mr. Nordstrom. That is correct.
    Mr. Ross. And who was on the other end of the line that 
told you that?
    Mr. Ross. I was on the telephone call with DAS Lamb.
    Mr. Ross. Was Ms. Lamb on the phone call with you?
    Mr. Nordstrom. That is. I am sorry.
    Mr. Ross. So she did tell you that?
    Mr. Nordstrom. That is correct.
    Mr. Ross. Okay. Now, she, just the other day in an 
interview with the committee, indicated that on your July 9 
cable to Washington requesting security personnel, you didn't 
formally request an SST extension. In fact, you just made a 
recommendation. Can you explain if there is a difference 
between a recommendation and a request?
    Mr. Nordstrom. I in post felt that was a pretty clear 
request for resources.
    Mr. Ross. Had you done it before with the idea that it was 
a request?
    Mr. Nordstrom. I believe it was also titled ``request for 
continued TDY staffing.''
    Mr. Ross. And it was a denial of that extension.
    Mr. Nordstrom. Well, actually, we never actually received a 
response.
    Mr. Ross. Other than that phone conference that you were 
on.
    Mr. Nordstrom. Correct. We never received a response----
    Mr. Ross. And as a result of that phone conference where 
you were denied, did you seek any further effort to follow up 
or make a re-request?
    Mr. Nordstrom. I believe actually to clarify, the telephone 
call was prior to sending in the cable. What we decided, since 
we continued to get resistance, instead of specifically asking 
for SST, or MSD, or whatever, we just said, you know what, give 
us the 13 bodies, wherever you come from, and that's the way in 
which we crafted the cable.
    Mr. Ross. Now, Mrs. Lamb, you testified in an interview 
with this committee that you trusted your RSOs in the field, 
such as Mr. Nordstrom. Now, how do you square that statement 
with you telling Mr. Nordstrom that you would not support an 
extension of the SST?
    Ms. Lamb. The cable that he sent in indicated that any of 
the categories----
    Mr. Ross. But before the cable was the phone conversation.
    Ms. Lamb. That is correct.
    Mr. Ross. But you wouldn't support his request or his 
recommendation at that time.
    Ms. Lamb. Because we had Department of State diplomatic 
security assets that could do the same functions of the 
remaining----
    Mr. Ross. And that was explained to him as well?
    Ms. Lamb. Yes, sir.
    Mr. Ross. Now, Lieutenant Colonel Wood, I understand that 
you were the senior officer of the SST team. Is that correct?
    Colonel Wood. That is correct, sir.
    Mr. Ross. And do you have any reason to believe that if you 
had to go up your chain of command at AFRICOM for a request 
from the State Department that they extend the tour of duty of 
an SST that your chain of command would not grant that?
    Mr. Wood. General Ham was fully supportive of extending the 
SST as long as they felt they needed them.
    Mr. Ross. So the resources were available for the SST.
    Colonel Wood. Absolutely.
    Mr. Ross. And had they been there, they would have made a 
difference, would they not?
    Colonel Wood. They made a difference every day they were 
there when I was there, sir. They were a deterrent effect.
    Mr. Ross. Thank you. Now, Ambassador Kennedy, just real 
quickly, and everybody has been beating this, and I understand 
it, but I just want to reconcile it in my own mind. Here we 
have got the official statement of the State Department that 
this protest, this attack, was all as a result of a video that 
was controversial. But yet the next day, the President of Libya 
comes out and says, well, it was not as a result of a 
controversial video. In fact, he had no doubt that it was an 
act of terrorism. And so I guess my question is, is it that the 
Libyan intelligence is so superior to the American intelligence 
that they knew within 24 hours that it was a terrorist attack, 
and within 6 days, we are still saying it was a result of a 
video?
    Mr. Kennedy. Mr. Ross, I am going to take a liberty here, 
and I am going to correct one point, if I might. You asked the 
colonel, would his team have made a difference?
    Mr. Ross. No, sir, you are on my time right here, so I have 
to control this.
    Mr. Kennedy. His team was not----
    Chairman Issa. The gentleman from Florida controls the time 
for questions he wishes to ask.
    Mr. Kennedy. Very good, sir.
    Mr. Ross. So the intelligence between the Libyans and the 
Americans just wasn't the same. Apparently, they were more 
superior. Now, if they were more superior in their 
intelligence, and you testified just earlier that you were 
still gathering information, that is why you didn't say it was 
officially a terrorist attack, then why in the world did you 
say it was anything at all when you put Jay Carney out there 
and Ambassador Rice to say that this is a result of an 
inflammatory reaction to a controversial film?
    Sir, it begs the question. What happened was it was a 
result of political pressure trumping professional protocol, 
was it not?
    Mr. Kennedy. Mr. Ross, I have been a career Foreign Service 
officer for 39 years. I have served every President since 
Richard Nixon. I have directly served six Secretaries of State, 
Democratic and Republican. On my honor, no, none, political 
pressure was applied to me in this case by anyone at the State 
Department, at the National Security Council, or at the White 
House.
    Mr. Ross. Then it was a professional protocol malpractice.
    I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Chairman, for almost a year there was an escalating 
pattern of violence directed towards the United States and 
other Western targets in Libya: Attacks on the consulate in 
Benghazi; attacks and assassination attempts on the British 
ambassador; attacks on the International Red Cross; attacks on 
courthouses; judges assassinated; culminating on September the 
11th in the murder of four Americans, including our ambassador 
to Libya.
    Before those four murders, Mr. Chairman, just a few weeks 
before that, our embassy in Libya said this to the Department 
of State: The security condition in Libya remains 
unpredictable, volatile, and violent.
    So Mr. Chairman, despite what would appear to any 
reasonably objective observer as an escalating pattern of 
violence, including sophistication, coordination, and 
management, this administration blamed the murder of our 
ambassador and three others on a video.
    Don't take my word for it, Mr. Chairman, let's look at what 
Ambassador Rice herself said: Our current assessment is that 
what happened in Benghazi was, quote, in fact initially a 
spontaneous reaction. I don't know what the phrase ``in fact'' 
means in diplomatic legalese. I can tell you what it means in a 
courtroom, Mr. Chairman. It means it is a fact. And she went on 
national television, and she said, not as this ambassador has 
said, that I am not going to speculate, that I have got to get 
all the information; she said, in fact, this was a spontaneous 
reaction to what had just transpired hours before in Cairo, 
almost a copycat of the demonstrations against our facility in 
Cairo, which were prompted, of course, Mr. Chairman, by a video 
is what she said.
    And then she proceeds to say the attack was spontaneous. I 
can think of few things, Mr. Chairman, more antithetical to 
spontaneity than a 12-month long prologue of violence in Libya.
    And then she said she relied solely and squarely on the 
information the intelligence community provided. Mr. Chairman, 
I would like to have another hearing where we can ask 
Ambassador Rice under oath, who told you what when? You are 
going to blame the intelligence community; you come before this 
committee and you tell us who told you it was a video. Who in 
the intelligence community said it? Who in the diplomatic 
community blamed this on a video?
    And then we move to Jay Carney, who is the spokesperson for 
the leader of the free world. This is what he said, Mr. 
Chairman: ``I am saying based on information that we--our 
initial information that includes all information--we saw no 
evidence to back up claims by others that this was a preplanned 
or premeditated attack. What we saw was evidence that it was 
sparked by the reaction to this video. And that is what we know 
thus far based on evidence, concrete evidence''.
    Mr. Chairman, you know that in a former life, I spent a 
little time in the courtroom. So when I hear the phrase 
``concrete evidence,'' it means something to me. That is even 
stronger language than simply saying something is in fact. So 
two representatives of this administration gave demonstrably 
false statements, not just to us, but to our fellow citizens on 
national television. Now, is the explanation for those 
demonstrably false statements, as my colleague from Florida 
just asked, was it negligence? Was it just a reckless disregard 
for the truth? Or was it more nefarious than that?
    Mr. Chairman, the American people are reasonable. People 
understand investigations take time. People don't expect you to 
speculate until you have all the facts. What they will not 
forgive, Mr. Chairman, is being misled. We want our questions 
answered. And I want them answered by the people that went out 
before the American people and sought to mislead them by 
blaming this on a video when there is no evidence, concrete or 
otherwise, to support the assertions made by this 
administration.
    Mr. Chairman, I just had a conversation with Jason Chaffetz 
out back. And I hope he doesn't mind me saying this. He still 
gets emotional talking about what he saw in Libya. There were 
four brave Americans who died under circumstances that we can 
scarcely fathom, the terror, the fear, the anarchy of being 
killed in that fashion. They did what their country asked them 
to do. They stood post under dangerous circumstances even after 
requests for security were denied. They stood their post. The 
least we can do is stand this meager post that we have been 
assigned and demand that this administration speak the truth to 
the people it is supposed to serve. This was never about a 
video. It was never spontaneous. This is terror. And I want to 
know why we were lied to. And I yield back.
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. The ranking member.
    Mr. Cummings. I have to, as an officer of the court, I have 
to--I am looking at the transcript from the date, and I will 
read it, if you want. I mean, to sit here and accuse one of our 
fellow citizens and Secretary Rice of lying, that is a very, 
very serious statement. And I am very concerned about that 
because I mean, she made it clear over and over again that she 
was dealing with the information that she had at that moment. 
And she said it over--I looked at every single interview. I 
think we have to be very careful. Just as the gentleman talks 
about he wants some truth and all that to come forward, I would 
be happy to join and have Ms. Rice come up here.
    But I think we have got to be careful, a distinguished 
attorney, a distinguished woman, and she made it emphatic, she 
said this is the information I have at this moment.
    Chairman Issa. I appreciate the gentleman's comment.
    I would inform the committee that the ranking member and I 
will be requesting a classified interview at the earliest 
possible date, perhaps as early as next week, that would be 
similar to the one that Ambassador Kennedy was in yesterday. 
And we will inform both sides as soon as that has been granted.
    Additionally, it is our intention to follow all of the 
clues to where they lead, including how a week after this, 
people could still say with certainty that in fact something 
was true that we now know not to be true.
    And I appreciate the ranking member's statement. And I 
thank the gentleman from South Carolina.
    With that, we now go to the ever patient senior member of 
the--I am sorry. We now go to the equally patient gentleman 
from Texas, Mr. Farenthold.
    Mr. Farenthold. I am not sure my wife would agree with you 
on patience.
    Chairman Issa. She is actually more patient than you. We 
have met her.
    Mr. Farenthold. Anyway, after listening to Mr. Gowdy, you 
know, we have a list of four brave Americans who gave their 
life for this country, Ambassador Stevens, Sean Smith, Glen 
Doherty, and Tyrone Woods.
    And I think Mr. Gowdy hit it on the head, at best, this is 
negligence. We have an ongoing pattern of requests for more 
help and it not going up the chain of command. How many more 
people are we going to have to add to this list? And that is 
what I want to pursue in this line of questioning.
    And I will start with Mrs. Lamb and Ambassador Kennedy. Are 
there other embassies similarly situated, other State 
Department outposts that are asking for more help because of 
volatile situations that are not getting it?
    Ms. Lamb. In volatile locations, no, sir.
    RSOs just need to confer with their post management, 
because it is a matter of bed space and logistical issues and 
the requests and the justification for what these personnel 
will do, and it is granted. If we don't have permanent 
assignments to put there, we immediately put temporarily 
assigned agents there.
    Mr. Farenthold. So there is not a budget problem; it is not 
you all don't have the money to do this?
    Ms. Lamb. Sir, if it is a volatile situation, we will move 
assets to cover that.
    Mr. Farenthold. Would you have considered--at the time, did 
you consider Libya to be a volatile situation?
    Ms. Lamb. Sir, absolutely. And the desk officer sat--talked 
and sent emails and came to an agreement with Eric Nordstrom. 
We were trying to get a clearly defined list of exactly what he 
needed out there.
    Mr. Farenthold. So how long does this have to get tied up 
in bureaucratic red tape? To me, it is like saying we are on 
fire, let's figure out how many firemen to send. Let's just 
send some.
    Ms. Lamb. Sir, we did provide everything that he asked for.
    Mr. Kennedy. Sir, do you want my response to that, too?
    Mr. Farenthold. Yes, please.
    Mr. Kennedy. Thank you very much, sir.
    The answer is we did provide resources. And as a point of 
clarification following on your question, there has been a 
large discussion here about the SST team headed by Colonel 
Wood. The SST team was the Tripoli team.
    Mr. Farenthold. Okay. I want to go to Mr. Nordstrom, 
because he was there on the field. You guys, I was talking to 
you guys about what was happening in D.C.
    Do you think it was on fire, and you needed more people and 
you communicated that urgently up the chain of command?
    Mr. Nordstrom. I think that my cables stand as they are in 
terms of addressing the assertion from DAS Lamb that there 
wasn't a specific or detailed list.
    For the members that are here, they can see that this is 
more than detailed. I also have a number of memorandums that 
went back as far as February detailing not just the numbers we 
needed but the specific hours those people would be working and 
the duties.
    Mr. Farenthold. And you didn't get them.
    Mr. Nordstrom. I think the question to be asked is, again, 
as was asserted after my July 9th cable, that the plan was to 
source our security needs from the Department of State rather 
than from the Department of Defense. I think the question is, 
were those resources ever provided? And I think the answer is 
no.
    Mr. Farenthold. Okay. You have anything to add, Lieutenant 
Colonel Wood?
    Colonel Wood. No.
    Mr. Farenthold. Okay. I realize you guys don't, Lieutenant 
Colonel Wood and Mr. Nordstrom, you all don't have the level of 
information that Ms. Lamb and Ambassador Kennedy have. But 
having been in the biz, so to speak, do you think there are 
other embassies out there and other State Department facilities 
similarly situated to what we had in Libya that are at risk 
today?
    Colonel Wood. Sir, it is my impression that a cookie-cutter 
approach or some sort of a plan was being applied to us. That 
is what we felt down there in the field as we tried to work 
this situation. And certainly Libya met none of those 
requirements.
    Mr. Farenthold. Yeah. As a former military person, 
historically, it is been the Marines that have protected our 
embassy and for a variety of political situations. And I need 
point no further than Iraq, with the huge amount of money we 
are spending to protect our embassy with contractors, when for 
political reasons or whatever we are not putting Marines in. Do 
you think that is a good idea that we are doing that, we are 
not relying on the Marines?
    Colonel Wood. Sir, I think there is definitely a place for 
it. It needs to be studied. And I think each location is going 
to present you with a different situation that needs to be 
looked at for the merits on its own merits.
    Mr. Farenthold. And I think as we have the Arab Spring 
coming, and we have the freedom and democracy coming to these 
Arab states, we have got to be aware that sometimes there are 
going to be times of transition when countries are not stable. 
There may be election results that we don't like or when people 
who don't like us are elected. And I think we need to take this 
as a lesson that we need to be much more proactive and project 
more strength so this doesn't happen in times that can change 
literally in a matter of hours. I see I am out of time, so I 
will yield back.
    Chairman Issa. I thank the gentleman.
    With that, we are going to go to our very patient invited 
Members of Congress, starting with the senior member of the 
Foreign Affairs Committee, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And as chairman of the Oversight and Investigations 
Subcommittee of Foreign Affairs, I appreciate you taking the 
lead in making sure that we are deeply getting in deep into an 
issue that is important to the American people.
    It has been suggested that budget cuts were responsible for 
a lack of security in Benghazi. I would like to ask, Ms. Lamb, 
you made this decision personally; was there any budget 
consideration and lack of budget which led you not to increase 
the number of people in the security force there?
    Ms. Lamb. No, sir. And it----
    Mr. Rohrabacher. Okay. That is all I need. Thank you very 
much.
    Okay. So it wasn't a lack of money, as we have heard by 
some people trying to suggest that. Was it a lack of 
intelligence? Was this a failure of intelligence? Or was it a 
lack of competence? Or is this just something that will happen? 
No matter how we try or how competent we are, we are going to 
lose lives like this.
    Ms. Lamb. Sir, this was an unprecedented attack in size and 
ferocity, as the words of RSO Eric Nordstrom. And as long as we 
have the need to be outside of the wire in these volatile 
countries, we can't defend against that.
    Mr. Rohrabacher. Okay. Let me just note that I do not 
believe that that is the case. But I think that you honestly 
believe that.
    . There are other factors involved here that make us 
vulnerable or not vulnerable to these type of evil forces that 
are in the world. So I would like to--I know we have touched on 
these issues of preparedness, et cetera, and the bureaucratic 
things that people go through to make sure that we don't have 
this type of suffering and loss of life. But I would like to 
focus on not the bureaucratic planning and what could have been 
done and not done; I would like to focus on one other area. We 
heard from one of our colleagues a list of names of those 
killed during the Reagan administration who were killed by 
terrorists. I worked in the Reagan administration. I can tell 
you not once, when all of these Americans were being killed by 
terrorists, did the administration in any way try to excuse or 
in any way these murderous attacks as some sort of spontaneous 
outrage due to something that the administration had done or an 
American citizen had done. Big difference. We are talking about 
a mindset that may encourage evil forces in the world to kill 
Americans.
    This administration has been bowing and scraping to try to 
prove its sincerity and friendship seeking to the Islamic world 
since day one. It has projected not strength, but weakness and 
has demoralized our friends and emboldened our enemies, which 
perhaps had something to do with people who took a long time to 
plan out this kind of attack. This mindset might be seen in a 
psychological minimizing of the threat of radical Islam in 
general and maybe even specific situations. This mindset might 
also be seen in situations like this when we are trying to 
describe and come to the realization of what happened in a 
horrific terrorist attack on our people.
    For example, there is a mindset that might lead people who 
are here testifying not even to use the word terrorism in their 
testimony when we are talking about a terrorist attack that 
murdered our ambassador. That is not your fault. But there is a 
mindset there somewhere that says those--the word terrorism 
doesn't come into your written testimony. I would also suggest 
that we need to--that mindset may be when people jump to the 
conclusion, because it is an easy conclusion, to blame a film 
maker and let terrorists off the hook for responsibility of 
these terrorist acts. That mindset of minimizing the threat of 
terrorism and blaming it on us, freedom of speech in America, 
we permitted a film that created outrage overseas, instead of 
putting the blame where it belongs.
    And that is where the testimony from Mr. Kennedy comes in. 
Mr. Kennedy, we need to understand that whole scenario after 
this event to understand the mindset that may be at play here. 
We need to understand the scenario of what happened. Six days 
afterwards, we know the American people were given false 
information about who was responsible. You were here today, and 
you are unable to give us a view of how that came about. And 
the fact is, as far as this Member of Congress is concerned, 
you were engaged in stonewalling or a coverup or whatever it 
is. Lets me ask you it flat out. Did anyone tell you not to 
answer this question?
    Mr. Kennedy. Absolutely no one.
    Mr. Rohrabacher. So you have taken it upon yourself not to 
answer what is a simple scenario. When did you first know about 
this? Or as they said during the Nixon years, when did you 
know? What did you know? And when did you know about it? But 
you are not able to give us that answer.
    Mr. Kennedy. If I could respond, sir?
    Chairman Issa. The gentleman's time has expired, but the 
ambassador may respond.
    Mr. Kennedy. Let me quote exactly what Susan Rice said on 
that Sunday talk show: ``But our current assessment, based on 
the information that we have at present, is that in fact what 
this began as was spontaneous, not premeditated.''
    Mr. Rohrabacher. Right.
    Mr. Kennedy. She said very specifically, ``based on our 
current assessment.''
    Mr. Rohrabacher. And Mr. Chairman, the retort to that is we 
are not just talking about her one statement. If you notice, 
this innuendo and this blame for the time immediately after was 
what we heard--all heard about it. It was the film. How many 
times? The Secretary of State used the word the film. So it is 
not just one speech that you are talking about, which may or 
may not be correct. This is something that we need to get to 
the heart of the matter.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from Florida, who is extremely 
familiar with law enforcement and how it is to be worked, Ms. 
Adams.
    Mrs. Adams. Thank you, Mr. Chairman.
    And thank the committee for allowing me to sit here today.
    Ms. Lamb, I am a former law enforcement officer, as I know 
you have stated you are. So I am going to go along that line, 
as my colleague who is a prosecutor. We tend to listen very 
intently and are trained to do so. So I believe you will 
understand some of the questions I am going to ask you. And yes 
or no is fairly easy on some of them, like Mr. Burton asked 
you, was it your sole discretion to deny the extra manpower. 
Yes or no? Your sole discretion. Was it your sole discretion to 
deny the request from Mr. Nordstrom?
    Ms. Lamb. No.
    Mrs. Adams. Who above you had to approve that?
    Ms. Lamb. The response cable would be approved by two 
senior----
    Mrs. Adams. And who are they?
    Ms. Lamb. The director of diplomatic security and the 
Assistant Secretary.
    Mrs. Adams. Names, please?
    Mr. Lamb. Scott Bultrowicz and Eric Boswell.
    Mrs. Adams. Thank you.
    Now, as a former law enforcement officer, I recognize there 
are certain dates that law enforcement across our great Nation 
prepare for because we believe they are significant to certain 
groups, one of which is September 11th. And it is significant 
to which group, Ms. Lamb? Which group would make that 
significant?
    Ms. Lamb. I am not sure I am following you.
    Mrs. Adams. Which terrorist group finds September 11th 
significant?
    Ms. Lamb. I am sure all terrorist groups find it.
    Mrs. Adams. But mostly al Qaeda, would you not agree? Yes 
or no. If you don't agree, then say you don't agree.
    Ms. Lamb. Yes, I am sure.
    Mrs. Adams. Thank you. So, we have requests, over 230 clear 
incidents, we have, you know, bombings that have already 
entered our compound. Yet multiple requests, over 230 clear 
incidents, violence erupting everywhere around, and you and 
your agency deny the security personnel that they have 
requested. And then, on September 11th, which is known to be 
one of those dates that all of law enforcement and many people 
around the world look at--and I hope you helped her out, Mr. 
Ambassador, I am watching very closely and intently, as I was 
earlier--why is it that after all of that, that we have our 
ambassador to the U.N. go to the talk shows on the Sunday 
afterwards and many other people from your agency, even here 
today, that say, well, with the information that we had, why is 
it that they said it was a film, when everything, all my law 
enforcement training taught me, that it was pointing quite 
differently? Can you ask me--answer me did you believe, you, on 
September 11th and the morning after, did you believe that it 
was a video and not a terrorist attack? Yes or----
    Ms. Lamb. With 35 years of experience, I choose to wait 
until the investigation is complete before drawing a 
conclusion.
    Mrs. Adams. Well, that is good. Because that is the other 
thing I wanted to ask about, too. With my investigation 
experience, I also know that you follow the leads very 
carefully, and you don't go out and immediately claim one thing 
until you do have the facts, Mr. Ambassador.
    So, on September 14th, Ms. Nuland from your agency said 
that we have an open FBI investigation on the death of these 
four Americans. We are not going to be in a position to talk at 
all about the U.S. Government may or may not be learning about 
how any of this happened, not who they were, not how they 
happened, not what happened to Ambassador Stevens, not any of 
it until, Justice Department is ready to talk about the 
investigation. So you did talk about it yesterday. So did the 
Department of Justice say that they are ready to talk about it 
and you, therefore, can go ahead and give up that information?
    Mr. Kennedy. What we talked about yesterday----
    Mrs. Adams. I am asking Ms. Lamb.
    Ms. Lamb. I am sorry, I thought you were speaking with 
Ambassador Kennedy.
    Mrs. Adams. Did Department of Justice say, okay, our 
investigation is at a point you can now release this 
information? Yes or no?
    Ms. Lamb. No.
    Mrs. Adams. So you went ahead, and on September 14th, 3 
days after the attack, said you wouldn't release it, and then 
yesterday, you did release it, but the Department of Justice 
did not----
    Ms. Lamb. The FBI has cleared everything that we have said 
here today.
    Mrs. Adams. And yesterday also.
    Ms. Lamb. I was not in the briefing yesterday.
    Mrs. Adams. Mr. Ambassador, yesterday also?
    Mr. Kennedy. The material we used yesterday was drawn from 
the same pool that the FBI cleared.
    Mrs. Adams. The Department of Justice said, it is okay to 
release that information.
    Mr. Kennedy. We presented, we presented in a closed session 
to the Congress.
    Chairman Issa. Is the gentlelady referring to the press 
avail?
    Mrs. Adams. I am.
    Chairman Issa. It is your press conference in which you 
sort of stated a lot of things categorically for I guess 
everybody except Fox.
    Mr. Kennedy. I think the distinction--I think the 
distinction I would draw, Congresswoman, is that there is a 
difference between the investigation to determine who the 
perpetrators were and a rendition of the facts that we now know 
ran out. So there is a timeline, and then there is the cause. 
And that is the distinction I humbly am making.
    Mrs. Adams. But your spokesperson said you would not--who 
they are, who they were, not how they happened, not what 
happened to the ambassador, not any of it until Justice 
Department is ready to talk. Is the Justice Department ready to 
talk on this?
    Mr. Kennedy. The Justice Department is certainly not ready 
to talk about the first two of the----
    Chairman Issa. The gentlelady's time is expired.
    And I don't think you are going to get an answer out of the 
gentleman on that subject. I appreciate your effort.
    The chair would inform everyone that we are not terribly 
interested in a second round. I am going to ask a couple of 
quick, very quick clarifying questions, and then if anyone 
really has a burning desire, they may. Otherwise, we will 
conclude.
    Everyone has been very generous with their time.
    And it really boils down to there was a statement that 
hasn't been covered any further, Ambassador Kennedy, that the 
DC-3, an aircraft that was available, was taken away because, 
quote, commercial airline capacity was created. Correct?
    Mr. Kennedy. Correct.
    Chairman Issa. Okay. So why are there five fixed-wing 
aircraft, at least one of them very big, quite a few of them 
big, and 35 helicopters in Iraq, even though they have 
commercial aircraft?
    Mr. Kennedy. There is no safe commercial air service 
available within Iraq. There is safe commercial air service 
available to and from Libya, sir.
    Chairman Issa. Okay. So Libya is safe; Iraq isn't.
    Mr. Kennedy. In terms of air service, specifically to move 
people in and out of the country.
    Chairman Issa. Okay. I just want to make it clear. 
Additionally, and I am not trying to unreasonably use a prop, 
but I was given it, and I used it in an earlier hearing, 
everyone that goes to Iraq gets one of these, or at least an 
opportunity. This is from a brigade-size force of diplomatic 
security personnel.
    Thank you.
    I guess it looks better this way.
    Do you recognize--have any of you even it in Iraq, 
Ambassador? Ms. Lamb?
    Mr. Kennedy. I have never seen that, sir.
    Chairman Issa. It has been told to us in testimony that 
between 80 and 100 diplomatic security personnel have been 
working Iraq over the last year. Is that roughly right?
    Ms. Lamb. Eighty-eight, yes, sir.
    Chairman Issa. Okay. So Iraq, a place that the war is 
supposed to be over, it is safe, has like 6,000 contract 
personnel, 14,000 of our government employees direct and 
indirect, and 80 DSS, but you couldn't spare six more for 
Libya. Is that correct?
    Ms. Lamb. Sir----
    Chairman Issa. Or you didn't see the need for them.
    Ms. Lamb. No, sir, I am not sure where the number six is 
coming from.
    Chairman Issa. That was the difference between two crews 
and three crews. It would have been a difference of similar 
numbers had you backfilled with military personnel that were 
available and offered to you by General Ham.
    Ms. Lamb. Okay. Sir, as I said, Eric Nordstrom and the desk 
officer agreed on a number. We fulfilled that number. If he 
needed six additional people----
    Chairman Issa. Okay.
    Mr. Nordstrom, you are saying you don't agree on the 
number. That is probably the most important thing to get here 
straight. The number available on September 11th is not 
consistent with what you thought was the need when you were 
last in country. Is that correct?
    Mr. Nordstrom. Whether or not the numbers were agreed upon, 
when I left, we did not have the 12 numbers that were quote-
unquote agreed upon.
    Chairman Issa. Thank you very much.
    I want to thank all of the witnesses. Okay. Then I won't 
close at this point. I recognize the ranking member.
    Mr. Cummings. Just a few questions.
    Just following up on what the chairman just talked about, 
Ambassador, what is the budget for Iraq's embassy? Just an 
estimation.
    Mr. Kennedy. I think the budget is probably up close to a 
$700 million, $800 million run rate.
    Mr. Cummings. What about Libya?
    Mr. Kennedy. Much smaller than that, sir. I didn't bring 
that exact number with me.
    Mr. Cummings. Ms. Lamb, you have been--I listened to the 
description that you gave of what happened. And somebody asked 
the question a moment ago, basically, why you made the 
decisions that you did make. And I got to ask you, I am 
assuming that you were always concerned about the safety of the 
folks that were there. Is that right?
    Ms. Lamb. Absolutely.
    Mr. Cummings. And you, I assume you used your best judgment 
trying to make those decisions?
    Ms. Lamb. Absolutely. In fact, we sent an email to post 
right before the last MSD team left, offering to leave them 
there to continue training even though they didn't have the 
full complement for another class of armed bodyguards. And 
basically, we gave post two options. If they needed them, they 
could keep them there. We would be happy to train a lesser 
class. And then we also gave the option that we could come back 
a month later and train a full class. And post chose to allow 
the MSD team to leave and come back at a later date. And these 
are assets that would have been on the ground there as well.
    Mr. Cummings. The reason why I am asking you these 
questions is because I am just trying to put myself in your 
place right now. And the implications that you are either 
incompetent, that you didn't give a damn, or you are some kind 
of Scrooge, and I don't think you are any of those. And I just 
want you to just, you know, just give you an opportunity to 
respond to that.
    Ms. Lamb. Sir, we do have limited resources, and it is very 
important that we have our regional security officers in 
coordination with their emergency action committees at post and 
with their ambassadors clearly lay out and articulate exactly 
what they need and why they need it. And Eric Nordstrom did a 
fantastic job. He had a very difficult job as the first RSO 
going in there. And sometimes putting pen to paper and sitting 
down and coordinating a transition exit strategy, especially 
for the SST was very difficult. And we engaged him on a regular 
basis to try to come up with this exit strategy that we could 
all agree upon and to move into it gradually.
    Every time a mobile security division left, there were 
three, before each team left, they spoke with RSO Nordstrom, 
and they spoke with the Ambassador at post and they reviewed 
everything that they had accomplished and what the post needs 
still going forward and they got permission to leave before 
they left post.
    Mr. Cummings. Are you satisfied with your decisions?
    Ms. Lamb. I made the best decisions I could with the 
information I had, sir.
    Mr. Cummings. Thank you very much.
    Chairman Issa. Thank you.
    Mr. Kelly, you wanted to make a brief statement in closing?
    Mr. Kelly. I do, Mr. Chairman. Thank you, and all of you 
thanks for being here.
    I know there's incredible pressure put on you but you are 
all at part of the executive branch, not so much the two 
officers, and there is a time, and I said earlier, these things 
come at a bad time and people talk about being 27 days before 
the election but every once in a while you have to worry more 
about running the country than running for reelection, and you 
have to make decisions as the executive, and you have to make 
sure that the staff you have on board is really somebody that 
you can rely on all the time.
    These folks have to rely on you to make the decisions. 
While we can do some things in appropriations and oversight, it 
does come from the executive branch that all of these things 
fall into place. If you look at the organizational chart of 
this government, the State Department, Secretary of State has a 
great, great deal of responsibility. We lost four American 
lives. And I would think that as we go on, we have to ask these 
type of questions, and we have to ask what did we learn from 
the losses?
    And if we do have people out there that are in harm's way, 
are we protecting them the way we should? Are we making the 
commitment to them that they made to us? They put their lives 
on the line. And then I keep hearing, well, we didn't have the 
resources. But that is not true. It is priorities that count. 
How do you prioritize those moneys that you have?
    And I have got to tell you. I have watched this thing now 
since September 11. I am trying to understand why in the world 
we've sat back and we continue to try to find out who to blame. 
The blame is that there is a group of people in the world that 
are really bad people, but we have to be able to deal with 
them. But other question is we put our people in harm's way. 
Did we do the best job we could to protect them? They put their 
lives on the line. Did we do everything we could to protect 
them? And after what has happened in Benghazi what have we 
learned from that? And I know you are in law enforcement, I 
would tell the CSI Benghazi there is not a crime scene that has 
not been more contaminated than the one that is there right 
now. How would we learn from that after what we have allowed to 
have happen?
    So I know that it has been a long day for all of us for you 
specifically, but for those four Americans and the families 
that lost those lives, it is a much longer day. And for those, 
Lieutenant Colonel Wood, Mr. Nordstrom, those are your 
colleagues. That hits you deeper than any of us, so I do 
appreciate your being here. I know how difficult it is. But I 
would like to say that as elected officials, we have a 
commitment to do, when we took our oath of office. It has 
nothing to do with Republicans or Democrats. It has to do now 
with Americans and patriotism. And we better start to be able 
to look at this and place emphasis on where it needs to be, and 
Mr. Chairman I thank you very much.
    Chairman Issa. I thank you. Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman, I will be brief here. 
In a 13-month time frame, we had 230 security instances in 
Libya. When the 231st happens, the administration blames it on 
a video. We got two guys on the ground who repeatedly asked for 
additional security personnel and are denied, denied by people 
who have never been to the country they have been in for months 
at a time. There is a process in place, according to Ambassador 
Kennedy's testimony and statements, where professionals come 
together and they make assessments and decisions about what the 
field is requesting.
    Earlier, not in my questioning with you, Ambassador, you 
said factors that you look at, and I didn't get all of them 
listed, but three that I did jot down, stability of the 
government, threats against it and facility concerns. Well 
certainly in those three, there was nothing in Libya that would 
say they shouldn't get what they are asking for. The stability 
of this government, the government is a transitional 
government, that is the name of it. Threats against us, we had 
230, facility concerns, you have admitted that in testimony the 
facility wasn't up to code.
    So I guess I just want, it seems to me that the $64,000 
question is what would it have took to give the guys on the 
ground who have been there for months where you haven't been, 
what would it have took to get the additional security 
personnel? Would it take 232, 250 incidences? Would it take a 
government that had been in power 8 months, not 5 months? What 
would it have took to do what the professionals in the field 
felt needed to be done to protect American assets and the lives 
of these four individuals?
    And we will start with you Ambassador, and then Ms. Lamb.
    Mr. Kennedy. We do assessments every day of security around 
the world. We look at every, we look at every location. There 
were 234 incidents. Only 20 percent of them were in Benghazi, 
the rest of them were in Tripoli or elsewhere. There had not 
been a single incident in Benghazi.
    Mr. Jordan. Were the more serious ones in Benghazi?
    Mr. Kennedy. No, they were elsewhere. There was not ever a 
single incident in Benghazi of the lethality of the nature of 
the armed attack which I pointed out was almost unprecedented. 
Therefore, we then worked very, very carefully. We cannot end 
the risk to our people overseas. The State Department must go 
into harm's way. We attempt to mitigate that level of threat. 
And if we cannot mitigate the level of threat, we will withdraw 
our people as we have done.
    Mr. Jordan. The British ambassador, there was an 
assassination attempt, our embassy was bombed twice. I guess 
one of those, what does it take to, again, this is not Congress 
telling you, these are the professionals in the field who say 
we need more security personnel in Libya. Okay, maybe all over, 
this is for Libya, the whole country and you guys say no. And 
you allude to in your testimony this process of considered 
judgments of experienced professionals in Washington.
    Well, I want to know what those considered judgments of 
experienced professionals, 234 incidences in the country, 
violence attacks on our embassy, on Ambassadors, what does it 
take?
    Mr. Kennedy. What I said, Mr. Jordan, there was not any 
actionable intelligence as the Director of National 
Intelligence had said----
    Mr. Jordan. Are these guys professionals? These guys do 
their job right? Would you agree with that? These guys said 
they needed more help.
    Mr. Kennedy. If I could finish my statement, sir, please.
    Mr. Jordan. Then I want to go to these guys.
    Mr. Kennedy. There was no actionable intelligence that was 
available that indicated----
    Mr. Jordan. The word of Mr. Nordstrom and Lieutenant 
Colonel Wood wasn't good enough?
    Mr. Kennedy. There was no actionable intelligence 
indicating that there was a plan or any indication of a massive 
attack of the nature and lethality. Yes, absolutely, there was 
a single rocket-propelled grenade fired at the Red Cross, there 
was an attack on the British compound. We analyzed those 
things. And I should also note that, for example, that the 
French and Italians and the United Nations looked at that same 
threat stream----
    Mr. Jordan. Mr. Nordstrom, do you think they were ever 
going to give you what you wanted? What do you think would 
warrant actually them saying you know what, these guys know 
what they are talking about, we are going to meet their 
request.
    Mr. Nordstrom. Thank you for asking that question.
    I actually had that conversation when I came back on leave 
and for training in February. And I was told by the regional 
director for Near Eastern Affairs that there had only been one 
incident involving an American where he was struck by 
celebratory fire, one of Colonel Wood's employees. The take-
away from that for me and my staff, it was abundantly clear we 
were not going to get resources until the aftermath of an 
incident. And the question that we would ask is, again, how 
thin does the ice have to get before someone falls through?
    Mr. Jordan. If I could Mr. Chairman, Lieutenant Colonel 
Wood.
    Chairman Issa. The gentleman, Colonel Wood you can answer 
also.
    Colonel Wood. Yes, I agree with Eric Nordstrom. Not only 
did we have an individual struck by a bullet, but we also had 
individual members of SST that had a firing shooting incident 
just before we terminated our duties there.
    Again, pointing to the instant ability for anything to 
happen there, it was an attempted carjacking and there were 
shots fired going both ways.
    Mr. Jordan. If I could, Mr. Chairman, Lieutenant Colonel, 
Colonel Wood and Mr. Nordstrom, were you pulling your hair out? 
Were you just flat flabbergasted that, what can we do? What can 
we say? What can we put in writing? What can we say on the 
phone? What else can we do? Was that your sense and attitude 
when you got the answers from Washington that you did?
    Colonel Wood. We were fighting a losing battle. We couldn't 
even keep what we had. We were not even allowed to keep what we 
had.
    Mr. Nordstrom. If I could add to that, and I told the same 
regional director in a telephone call in Benghazi after he 
contacted me when I asked for 12 agents. His response to that 
was you are asking for the sun, moon and the stars. And my 
response to him, his name is Jim and I said Jim, you know what 
makes most frustrating about this assignment? It is not the 
hardships, not the gunfire not the threats; it is dealing and 
fighting against the people, programs, and personnel who are 
supposed to be supporting me. And I added it by saying for me, 
the Taliban is on the inside of the building.
    Mr. Jordan. Mr. Chairman, I want to thank our witnesses in 
particular, Mr. Nordstrom and Colonel Wood for coming forward.
    Chairman Issa. I want to thank all our witnesses 
additionally. In the case of Lieutenant Colonel Wood and Mr. 
Nordstrom, if as a result perceived or actual of your testimony 
here today, you are in any way approached or anything happens 
in your professional lives with the United States Government 
that you have any questions about, please come to this 
committee. We take the work of whistleblowers and people who 
give testimony very seriously.
    You have been critical to bring out things that would not 
have come out of the ordinary course of the administration.
    I am going to close only with two comments that I took away 
from today. One is that you don't reduce security at the same 
time as you are increasing hazardous duty pay. It doesn't make 
sense. I haven't heard that question asked and answered, I only 
heard that it occurred. And I think the State Department should 
take away from today an understanding that that sends a message 
that says we will pay you for the risk, we will not pay to have 
you made safer. That is the impression that anyone would get if 
you reduce the staffing below recommendations or request and 
then increase the pay.
    I don't think that is what the men and women who serve us 
overseas want. I know that pay and compensation for hardship is 
important, but safety comes first especially on these 
unaccompanied assignments.
    Lastly, Colonel Wood, I have a marine fellow that works for 
me, actually I have a former marine fellow on the side there. 
The United States military very generously delivers people for 
other branches for their needs, and in return, those 
individuals come away understanding and more able to do a broad 
variety of jobs.
    Your time, working with the State Department, is invaluable 
as you continue your career. I would only say that whether you 
are talking to your National Guard commanders or the SECDEF or 
others, that we do appreciate the fact that our men and women 
have varied careers in which they can assist others with assets 
that would not be available and then take that back to their 
units.
    And I want to thank you for your service and use you as a 
conduit for so many men and women who, around the world have 
added to what otherwise would not be there in the way of 
security and protection. And with that we stand adjourned.
    [Whereupon, at 4:13 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9871.028
    
    [GRAPHIC] [TIFF OMITTED] T9871.029
    
    [GRAPHIC] [TIFF OMITTED] T9871.030
    
    [GRAPHIC] [TIFF OMITTED] T9871.031
    
    [GRAPHIC] [TIFF OMITTED] T9871.032
    
    [GRAPHIC] [TIFF OMITTED] T9871.033
    
    [GRAPHIC] [TIFF OMITTED] T9871.034
    
    [GRAPHIC] [TIFF OMITTED] T9871.035
    
    [GRAPHIC] [TIFF OMITTED] T9871.036
    
    [GRAPHIC] [TIFF OMITTED] T9871.037
    
    [GRAPHIC] [TIFF OMITTED] T9871.038
    
    [GRAPHIC] [TIFF OMITTED] T9871.039
    
    [GRAPHIC] [TIFF OMITTED] T9871.040
    
    [GRAPHIC] [TIFF OMITTED] T9871.041
    
    [GRAPHIC] [TIFF OMITTED] T9871.042
    
    [GRAPHIC] [TIFF OMITTED] T9871.043
    
    [GRAPHIC] [TIFF OMITTED] T9871.044
    
    [GRAPHIC] [TIFF OMITTED] T9871.045
    
    [GRAPHIC] [TIFF OMITTED] T9871.046
    
    [GRAPHIC] [TIFF OMITTED] T9871.047
    
    [GRAPHIC] [TIFF OMITTED] T9871.048
    
    [GRAPHIC] [TIFF OMITTED] T9871.049
    
    [GRAPHIC] [TIFF OMITTED] T9871.050
    
    [GRAPHIC] [TIFF OMITTED] T9871.051
    
    [GRAPHIC] [TIFF OMITTED] T9871.052
    
    [GRAPHIC] [TIFF OMITTED] T9871.053
    
    [GRAPHIC] [TIFF OMITTED] T9871.054
    
    [GRAPHIC] [TIFF OMITTED] T9871.055
    
    [GRAPHIC] [TIFF OMITTED] T9871.056
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
